<html>
<title> - MISCELLANEOUS NATIONAL PARKS BILLS</title>
<body><pre>[Senate Hearing 107-860]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-860

                   MISCELLANEOUS NATIONAL PARKS BILLS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on
                                     

                           S. 2623                               S. 2880

                           S. 2640                               H.R. 3421

                           S. 2776                               H.R. 3786

                           S. 2788                               H.R. 3858


                                     
                               __________

                           SEPTEMBER 19, 2002


                       Printed for the use of the
               Committee on Energy and Natural Resources


85-338              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman
BYRON L. DORGAN, North Dakota        CRAIG THOMAS, Wyoming
BOB GRAHAM, Florida                  BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CONRAD BURNS, Montana
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
CHARLES E. SCHUMER, New York         CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           PETE V. DOMENICI, New Mexico

  Jeff Bingaman and Frank H. Murkowski are Ex Officio Members of the 
                              Subcommittee

                David Brooks, Democratic Senior Counsel
                     Nancie Ames, Bevinetto Fellow


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     1
Anderson, Robert, Deputy Assistant Director, Minerals, Realty and 
  Resource Protection, Bureau of Land Management, Department of 
  the Interior...................................................    12
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     3
Daschle, Hon. Tom, U.S. Senator from South Dakota................     2
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     4
Giese, Dale, Ph.D., Fort Bayard Historical Society, Silver City, 
  NM.............................................................     9
Hainer, Michael J., Administrator, Fort Bayard Medical Center, 
  New Mexico Department of Health, Fort Bayard, NM...............     7
Radanovich, Hon. George, U.S. Representative from California.....     4
Stauffer, Max, Chairman, Bass Lake School District, Fish Camp, CA    25
Taylor, Jeffrey K., Assistant Director, Office of Legislative and 
  Congressional Affairs, National Park Service, Department of the 
  Interior.......................................................    15
Zontine, Patricia L., Chairman, Shenandoah Valley Battlefields 
  Foundation, Shenandoah Valley, VA..............................    27

 
                   MISCELLANEOUS NATIONAL PARKS BILLS

                              ----------                              


                      THURSDAY, SEPTEMBER 19, 2002

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:15 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    Senator Akaka. The Senate Subcommittee on National Parks 
will come to order. Good afternoon, everyone. The purpose of 
this afternoon's hearing before the Subcommittee on National 
Parks is to receive testimony on several bills pending before 
the subcommittee. The bills that we will consider today 
include: S. 2623, to designate the Cedar Creek Battlefield in 
Virginia and Belle Grove Plantation National Historical Park in 
Virginia as a unit of the National Park System; S. 2640 and 
H.R. 3421, to provide funding for school facilities in Yosemite 
National Park; S. 2788, to revise the boundary of Wind Cave 
National Park in South Dakota.
    We have two bills dealing with lands in New Mexico: S. 
2776, to provide for the protection of archaeological sites in 
the Galisteo Basin; and S. 2880, to designate the Fort Bayard 
Historic District as a national historic landmark.
    Finally, we will consider two other House-passed bills: 
H.R. 3786, to revise the boundary of the Glen Canyon National 
Recreation Area; and H.R. 3858, to modify the boundaries of the 
New River Gorge National River in West Virginia.
    Although we have a long list of bills on the agenda this 
afternoon, I think most of them are relatively noncontroversial 
and should not take too much time. I am especially interested 
in hearing more about the two bills authorizing park funds to 
assist the public schools in the Yosemite National Park, and I 
am very happy that Congressman Radanovich, the chairman of the 
counterpart subcommittee in the House of Representatives, is 
scheduled to testify.
    While I understand the problems of the Yosemite schools, I 
think it is important that the committee carefully consider 
whether national parks operational funds should be used, even 
in part, for non-national park purposes and whether authorizing 
park funds for the schools in Yosemite will lead to similar 
requests from other national parks around the country.
    Two of the bills that we are considering today are 
sponsored by the chairman of the full committee, Senator 
Bingaman. Mr. Chairman, I understand that you have a conflict 
this afternoon that may prevent you from staying for the entire 
hearing, but, please, I will ask you to proceed with any 
opening statement you would like to make at this time.
    [A prepared statement from Senator Daschle follows"]

         Prepared Statement of Hon. Tom Daschle, U.S. Senator 
                           From South Dakota

    Mr. Chairman, I want to thank you and Senator Thomas for convening 
today's hearing on the Wind Cave National Park Boundary Revision Act 
(S. 2788). I am proud to be this bill's sponsor, which will not only 
benefit my home state of South Dakota, but the entire nation by 
expanding the protection of natural resources near the park.
    Wind Cave National Park, located in Southwestern South Dakota, is 
one of the Park System's precious natural treasures and one of the 
nation's first national parks. The cave itself, after which the park is 
named, is one of the world's oldest, longest and most complex cave 
systems, with more than 103 miles of mapped tunnels. The cave is well 
known for its exceptional display of boxwork, a rare, honeycomb-shaped 
formation that protrudes from the cave's ceilings and walls. While the 
cave is the focal point of the park, the land above the cave is equally 
impressive, with 28,000 acres of rolling meadows, majestic forests, 
creeks, and streams. As one of the few remaining mixed-grass prairie 
ecosystems in the country, the park is home to abundant wildlife, such 
as bison, deer, elk and birds, and is a National Game Preserve.
    I introduced the Wind Cave National Park Boundary Revision Act in 
July in response to an opportunity for the National Park Service to 
acquire property from willing sellers neighboring the park. The land in 
question lies within the southern ``keyhole'' region, and is a natural 
extension of the park. It contains the same mixed-grass prairie and 
ponderosa pine forests found in the rest of the park, including a 
dramatic river canyon. The addition of this land will enhance 
recreation for hikers who come for the solitude of the park's back 
country. It will also improve fire management in the area and protect 
archaeological sites, such as a buffalo jump over which early Native 
Americans once drove the bison they hunted. I understand that this 
would be the first site of its kind in the National Park System.
    This plan to expand the park has strong support in the surrounding 
community, whose views were expressed during a 60-day public comment 
period on the proposal earlier this summer. Most South Dakotans 
recognize the value in expanding the park, not only to encourage 
additional tourism in the Black Hills, but to permanently protect these 
extraordinary lands for future generations of Americans to enjoy. 
Understandably, however, some are legitimately concerned about the 
potential loss of hunting opportunities and local tax revenue.
    Governor Bill Janklow, has expressed his support for the park 
expansion, as long as it (1) does not reduce the amount of land with 
public access that currently can be hunted, (2) there is no loss of tax 
revenue to the county from the expansion, and (3) chronic wasting 
disease issues are dealt with effectively. These are reasonable 
conditions that should be met as this process moves forward.
    In response to these concerns, the National Park Service modified 
its original proposal to exclude 880 acres of School and Public Lands 
property from the expansion. This will help maintain public hunting 
access to these areas, and protect local county tax revenues. In 
addition, the South Dakota Game, Fish, and Parks Department has reached 
an agreement with Wind Cave officials to monitor the occurrence of 
chronic wasting disease in elk and deer herds in the park, which will 
help officials better understand the disease. I am satisfied that the 
proposal put forth by the Park Service effectively addresses the 
concerns raised by the Governor.
    Wind Cave National Park has been a valued American treasure for 
nearly 100 years. This legislation provides us an opportunity to expand 
the park and enhance its value to the public, so that visitors will 
enjoy it even more during the next 100 years. It is my hope that my 
colleagues will support this expansion of the park and pass this 
legislation expeditiously.
    Again, thank you for holding this hearing. I look forward to 
working with the Chairman and the rest of the committee as it considers 
this legislation.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    The Chairman. Thank you very much, Chairman Akaka, for 
scheduling the hearing. I very much appreciate you including 
the two New Mexico-related bills. We do have two witnesses here 
from New Mexico prepared to speak on one of those two bills: 
Dale Giese, who is here; and Michael Hainer. I look forward to 
hearing their testimony.
    The first of the two bills that you referred to relates to 
the Galisteo Basin. It is S. 2776. It is a bill that I 
introduced to authorize the Secretary of the Interior to 
protect two dozen important archaeological sites in the 
Galisteo Basin. This is an area south of Santa Fe, between 
Santa Fe and Albuquerque. These sites contain the ruins of 
Indian pueblos dating back almost 900 years and include the 
largest pueblo ruins ever found.
    Some of the sites also include historic artifacts related 
to the Spanish colonization of the area in the 1500's. Because 
these sites are close to Santa Fe and Albuquerque, many of the 
sites are now threatened from development and increased use of 
land and erosion and exposure to elements and vandalism.
    S. 2776 directs the Secretary to protect these sites that 
exist on Federal land and to work cooperatively with private 
owners and pueblos in the State of New Mexico to protect sites 
located on their land. We held a hearing on this bill in Santa 
Fe last month. I was pleased to see the broad support from 
leaders of the Pueblo community, affected landowners and local 
community leaders in general. In fact, to date we have not had 
a single person submit testimony in opposition to the bill.
    Let me briefly turn to the other item that relates to New 
Mexico. It is S. 2880. This would designate Fort Bayard 
Historic District in southwestern New Mexico as a national 
historic landmark. This is located a very few miles from my 
home town of Silver City and has long been recognized as an 
historically significant site.
    I see one of the other bills on the hearing agenda would 
designate a Civil War battlefield in Virginia for protection. 
Fort Bayard has a Civil War connection, a Virginia Civil War 
connection, in that the fort was named for General George 
Bayard, who was killed at the Battle of Fredericksburg. The 
fort was built in 1866. It played an important role in the 
Apache Wars and the settlement of southwestern New Mexico, and 
many of the so-called Buffalo Soldiers were stationed at Fort 
Bayard. They served with distinction there, including one who 
received the Congressional Medal of Honor.
    This is, of course, also a historic medical facility and 
the administrator of that medical facility, Mr. Hainer, is here 
to testify, so I will not steal any of his thunder except to 
say that I think both of these are very meritorious bills and I 
hope we can move ahead on them this year.
    Again, thank you for letting me participate in the hearing.
    Senator Akaka. Thank you very much for your statement.
    I would like to ask Senator Domenici for any statement he 
may have at this time.

       STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Domenici. Thank you very much, Mr. Chairman.
    I welcome the New Mexicans who are here and I will be here 
to see them, meet, and talk with them. I have a brief comment 
on the Fort Bayard National Historic Landmark, S. 2880. I am 
very hopeful that I can cooperate and help, Senator, and that 
we will get that done quickly.
    With reference to the archaeological protection area, S. 
2776, my concerns and objections to it remain the same as they 
were last year. I do not believe we have to have this much 
Federal interference in order, with all this property, in order 
to have a preservation, something that is preserved that we can 
recognize. But I am willing to listen again, as I was before, 
and perhaps more people from the area are in favor or less 
opposed, and we will just see what that yields. But I commend 
you for introducing it again. What is behind it is very good, 
very solid. Whether we have to do it this way or not, I do not 
know.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you.
    I would like to welcome Congressman George Radanovich, the 
chairman of the House Subcommittee on Parks, Recreation, and 
Public Lands, and the sponsor of H.R. 3421. We look forward to 
hearing your testimony, Congressman. Your statement will be 
included in the record in its entirety, so please feel free to 
summarize your remarks. Thank you for being here and please 
proceed.

             STATEMENT OF HON. GEORGE RADANOVICH, 
              U.S. REPRESENTATIVE FROM CALIFORNIA

    Mr. Radanovich. Thank you, Senator Akaka. I appreciate the 
opportunity to describe my bill before the committee and have 
it heard. Thank you very, very much.
    My bill, H.R. 3421, is unique in that California is one of 
the only States where operating funds for schools are based on 
average daily attendance. Since the devastating flood of 1997 
in the Merced River Canyon, there has been a dramatic reduction 
in the number of park employees and thus fewer schoolchildren 
attending these schools. With fewer and fewer children 
attending these schools, fewer State dollars are committed.
    The result is that the superintendent for the Yosemite 
National Park and the concessionaires serving the park visitors 
are attracting less than qualified candidates to work in the 
park because families are not provided with adequate schools. 
Furthermore, other existing Federal funding sources are 
inadequate to meet the needs of the schools. PILT, or payment 
in lieu of taxes, is available in both Mariposa and Madera 
Counties where these schools exist and impact aid is accessible 
in Madera County only, but pursuant to current law very few 
dollars are actually used to fund these classrooms.
    The situation is so bad for the schools that both the 
superintendent of Yosemite National Park and the president of 
the concessionaire services have pulled their children from the 
schools. In light of these realities, I was able to secure 
special funding of about $111,000 in fiscal year 2002 Interior 
appropriations for these schoolchildren. However, going to 
appropriators every year for this critical assistance is not 
the most productive approach, and that is why I have submitted 
the bill to make it permanent within the Department of the 
Interior.
    Mr. Chairman, I do not think that we should stand by and 
permit the children of Park Service and concessionaire 
employees from being deprived of their education simply because 
their parents have been asked by our Government to work in 
Yosemite. Precedent for assistance to these schools located in 
national parks does exist. Yellowstone National Park has such a 
program that was adopted I believe in 1942 and is limited in 
its scope to the national parks because of the fact that there 
are not very many where the schools rely solely upon students 
from concessionaire or Federal employee services.
    I do work for bipartisan support behind the measure. During 
the House subcommittee and committee consideration of the 
schools, a number of changes were made to address issues raised 
by the administration, members of the Resources Committee, and 
the Committee on Education and the Workforce. For example, the 
measures make it clear that funds that will be available by the 
Secretary will not go towards new construction, construction 
contracts, or major capital improvements, and thus would be 
limited to general upkeep, maintenance, and classroom teaching.
    After these modifications, the bill was approved in the 
House with bipartisan support earlier this year. After that 
House passage, Senator Feinstein and I worked to develop S. 
2640, and I support the Senate measure, which also includes the 
schools provision, plus language to authorize the Yosemite Area 
Regional Transportation System and an extension of the advisory 
commission for both the Manzanar National Historic Site and the 
Golden Gate National Recreation Area.
    In closing, I would urge support for H.R. 3421 and its 
Senate version, S. 2640, and am available to answer any 
questions that you might have.
    Senator Akaka. Thank you for your testimony, Congressman. 
While we all agree on the goal of your legislation, to ensure a 
quality education for students attending those schools, there 
is still a question why this should be funded by the national 
park revenues instead of through the Department of Education or 
another school-related funding source. Can you give us any of 
your thoughts on this as to why you are asking national park 
revenues to operate this school facility?
    Mr. Radanovich. It would be my pleasure, Senator. Primarily 
because California allocates its funds based on average daily 
attendance, which, if the number of students in a school is not 
very high the funding that goes toward that school drops 
dramatically, and there is a threshold which is needed in order 
to operate any classroom. Because of that and because most of 
the programs that have been made available to areas such as 
Yosemite or Mariposa County with high Federal land ownership 
are simply not enough to make up in the budgets in that area. 
For example, impact aid is very, very small because the 
relationship between Federal employees and the rest of the 
population in the county is not high enough to provide 
sufficient dollars for the operation of the classroom. Also, 
PILT as a program within the county does not allocate those 
resources for educational purposes. It goes right into the 
general fund and is used to serve a barebones supply of 
services to the county.
    So for Yosemite the normal funding sources are just not 
enough to make it a viable school, and yet we are still 
expected to attract people to run one of the crown jewels of 
the National Park System.
    I did mention earlier, too, that there is precedent in 
Yellowstone National Park--I believe it was 1942 the provision 
was made--and that it would be very narrow in scope. I do not 
think this opens the door much to anything, simply because 
there are very few schools in the park system where their 
students are comprised 100 percent of both concessionaire and 
Federal employees. So I think that that would limit the scope 
dramatically.
    Senator Akaka. That was going to be another question of 
mine, as to what kind of students will be attending the school.
    Mr. Radanovich. Right. The schools in El Portal, Yosemite, 
and in Wawona are, as I had mentioned, completely attended by 
concessionaire and Federal employees. There are no outside 
students in those schools. If the schools are not available, 
they would be forced to endure a 2-hour bus ride one way to the 
local schools in Mariposa and Bass Lake through some pretty 
windy roads. It is a dramatically rural area. That would make 
it very, very difficult to get qualified employees to manage 
Yosemite National Park, which is a big concern of ours.
    Senator Akaka. Well, thank you very much.
    Are there any further questions?
    Senator Domenici. I just wanted to ask, do I understand 
that what you would like is to make this an entitlement rather 
than an appropriated account that would occur every year?
    Mr. Radanovich. Yes. Prior to this we were subject to an 
appropriations and we would like to get it permanentized.
    Senator Domenici. So it would not be subject to 
appropriation?
    Mr. Radanovich. Right. Yes. There is a cap on it up to 
$750,000.
    Senator Domenici. Not very easy to get new entitlements 
passed up here, but good luck.
    Mr. Radanovich. All right.
    Thank you very much for hearing my bill.
    Senator Akaka. Thank you very much for your statement, 
Congressman. We look forward to working with you, not only on 
the Yosemite bill, but also on the many other park bills that 
we need to reach consensus on over the next few weeks.
    Mr. Radanovich. I make myself available to you any time 
regarding that.
    Senator Akaka. Yes. Well, thank you for being here.
    Mr. Radanovich. Thank you.
    Senator Akaka. We only have a few witnesses scheduled to 
testify this afternoon, so I thought it might be useful to ask 
all of the witnesses to come forward at this time.
    I know that Senator Bingaman has to leave shortly. We 
normally begin with administration witnesses, but I wonder if 
they would not mind deferring for a few minutes so that we can 
call on the two witnesses from New Mexico, Mr. Hainer and Dr. 
Giese, so that the chairman can hear their testimony on the 
Fort Bayard National Landmark bill before he has to leave, and 
also Senator Domenici.
    Before we begin, I would like to ask all of the witnesses 
to please summarize your testimony and limit your oral remarks 
to no more than 5 minutes. We will include your entire written 
statement in the official hearing record. So at this time, let 
me call on Mr. Hainer to proceed, and following him will be Dr. 
Giese.

  STATEMENT OF MICHAEL J. HAINER, ADMINISTRATOR, FORT BAYARD 
 MEDICAL CENTER, NEW MEXICO DEPARTMENT OF HEALTH, FORT BAYARD, 
                               NM

    Mr. Hainer. Chairman Akaka and to the two great Senators 
from New Mexico: Thank you for the honor and opportunity to 
speak before you today. I bring all of you greetings, greetings 
from the many U.S. armed forces veterans and other residents 
receiving health care services at Fort Bayard Medical Center 
today. I bring you greetings from the 380 staff of Fort Bayard 
Medical Center and the many citizens of the community of Fort 
Bayard, the mining district of Grant County, and New Mexico. 
Thank you again for the opportunity.
    I am the administrator of Fort Bayard Medical Center, which 
is operated by the New Mexico Department of Health for the 
management of health care services. My responsibilities are not 
only for the operation of the health care services, but for the 
management of the entire unincorporated community of Fort 
Bayard, including infrastructure.
    This is my second post of duty at a health care facility 
previously operated as a cavalry fort by the U.S. Army, and 
previously I was a member of the Lincoln Historic District 
Preservation Board appointed by the county commission of 
Lincoln County, New Mexico.
    Why recognize Fort Bayard Medical Center, a hospital and 
health care community, as a national historic landmark? Mr. 
Chairman, Fort Bayard carried out a pioneering role in 
tuberculosis and pulmonary disease treatment to veterans of the 
Spanish-American War, World War One, World War Two, and many 
citizens of New Mexico subsequent. This is of national, if not 
global, health care development significance.
    Fort Bayard today is an intact example of a long period of 
the Federal Government's role in the settlement and development 
of the Western United States and the Federal role in the 
development of public health care treatments and services to 
people who are often underserved by private providers.
    The historic district today is accurate. It contains 
architectural and cultural treasures, with few intrusions of 
noncontributing structures or buildings. The period from the 
1920's to 1930's remains substantially intact for enjoyment, 
for provision of services today, and for the community and for 
the Nation to view.
    Today, the facility is currently operated as a health care 
community. Uninterrupted health care services have continued 
since the order beginning in 1899 and we are in our second 
century of health care services. I believe that it is time to 
recognize, preserve, and protect this facility and its heritage 
in both military and health care development while the 
opportunity exists.
    I represent support for this act because it is consistent 
with the criteria set forth for national historic landmark 
designation; that it is compatible with the current and planned 
use of the facility by the New Mexico Department of Health for 
provision of health care services. It is well supported by New 
Mexico's Office of Cultural Affairs, General Services 
Department, and Department of Health. All three of these 
entities have a vital concern and role with the operation of 
the facility.
    We have a strong relationship with the Fort Bayard Historic 
Preservation Society and local citizens and we are unified in 
our support, Mr. Chairman.
    In conclusion, sir, this is an opportunity to recognize and 
protect a period of Western development and a heroic era of 
health care services and treatment that has extended for over 
100 years. We believe this is of national significance. 
Moreover, sir, today this is not just a historic relic. This is 
a property, a culture, a lifestyle, and a service that 
continues alive and well through the hundreds of people who 
receive services and the hundreds of staff that provide them. 
We exist today. This is not just an event of the past.
    Thank you for the honor of speaking before you today, sir.
    [The prepared statement of Mr. Hainer follows:]

  Prepared Statement of Michael J. Hainer, Administrator, Fort Bayard 
    Medical Center, New Mexico Department of Health, Fort Bayard, NM

    Fort Bayard Medical Center is a multifaceted healthcare facility 
occupying 466 of the total 704 acres designated as the Fort Bayard 
Historic District. Sixty-two contributing buildings (and four non 
contributing buildings), many contributing structures, the military 
parade grounds, numerous roadways, community infrastructure systems and 
other elements that comprise the core of the cultural landscape of the 
Fort Bayard Historic District is nominated by this Act for designation 
as a National Historic Landmark. The administrator of this NMDOH 
facility is responsible for operation of numerous healthcare services 
as well as occupancy of the structures and operation of the 
infrastructure and services within the unincorporated community known 
as Fort Bayard.
    Healthcare services at the facility today include a dually 
certified nursing home accepting Medicaid and Medicare reimbursement. 
The United States Veterans Administration also certifies the nursing 
home as a State Veterans Home. The nursing home occupies all of a large 
hospital building erected in 1922 and formerly operated as a hospital. 
It was built as the U.S. Army's first tuberculosis sanitarium. The 
building is now licensed for 250 nursing home residents and operates at 
an average census of 185 residents, including the State Veteran's Home 
designated portion of the building. The state's strategic healthcare 
role met by this component of Fort Bayard Medical Center is to provide 
nursing home services to veterans and other individuals with 
challenging healthcare needs that are not well met by private nursing 
home providers. Inpatient rehabilitation and therapy services are also 
provided for many patients leaving area hospitals after injury, 
accident or surgery.
    Fort Bayard Medical Center also provides residential chemical 
dependency treatment and rehabilitation services. The former hospital 
administration building built by the Veterans Bureau in 1909 is used 
for this purpose. Individuals with limited healthcare resources 
including numerous Native American tribal members use this service.
    Fort Bayard has continuously operated as a healthcare facility 
since 1899 with the transition from cavalry fort to U.S. Army Hospital. 
The New Mexico Department of Health has been the occupant and operator 
of Fort Bayard since 1965 after transition of the facility from the 
Veterans Administration to New Mexico control. A second century of 
continuous health care is now well underway at Fort Bayard. The 
Department of Health maintains a commitment to pursuing quality 
outcomes for the veterans and other citizens and families receiving 
these services.
    The designation of the facility as a National Historic Landmark has 
been evaluated by the Department of Health and found to be compatible 
with the Department's current and planned use of the facility. A strong 
working relationship has been forged between the New Mexico Department 
of Health, the New Mexico Office of Cultural Affairs, the New Mexico 
General Services Department and the Fort Bayard Historic Preservation 
Society to collaborate in the provision of unimpeded healthcare 
services concurrent with a commitment to protection of the vast 
cultural resource of the historic district. The Department of Health 
greatly values the public interest in the district's history. The 
tremendous contribution to Fort Bayard to regional protection of 
settlers during the cavalry fort period, followed by a long period of 
pioneering efforts in health care is well recognized. The Department 
joins the broad interest in the continued integrity of the district as 
an intact historic community. The Department is committed to a managed 
and shared enjoyment of the stately beauty of the district in a manner 
that preserves the quality of life enjoyed by the facility residents 
living at Fort Bayard today.
    As the facility administrator I am acutely aware of the need for 
intervention to protect and preserve the buildings and infrastructure 
of the district. Damage is occurring to many of the buildings. Many of 
the most valued and historic buildings are marginally protected and are 
in need of repair and preventative maintenance to avoid permanent 
damage or loss.
    I strongly support passage of this important Act. This appeal to 
the Committee to support the Act originates from my responsibilities as 
facility administrator of Fort Bayard Medical Center. This Act is 
supportive of an environment with an enhanced quality of life for the 
Veterans and the hundreds of other residents and families who are, or 
will receive healthcare services at Fort Bayard.
    The Act does not impose any new restrictions or requirements that 
adversely affect the operation of the healthcare services within the 
district. Passage of the Act will provide for deserved recognition and 
assurances for protection along with continued use of the facility for 
healthcare services without interference or undesirable intrusion.
    This Act also clearly reflects the desire of many concerned 
citizens of Grant County and New Mexico to recognize and protect a rare 
and intact cultural treasure that accurately portrays a courageous 
period of western development and healthcare services improvement. The 
healthcare history period at this site clearly represents a pattern of 
development in treatments that is national, if not global in 
significance.
    Incredibly, this Act will support an ongoing tradition and 
commitment to health care that is not only evident in the buildings, 
structures and landscape of the historic district but also remains 
vibrant and alive through the hundreds of residents receiving health 
care, their families, the facility staff, the numerous volunteers and 
the many community members actively involved with Fort Bayard today.
    Passage of this Act is an invaluable opportunity to recognize and 
preserve a significant cultural resource of national significance while 
it remains intact and occupied with strong state and local support for 
its management and care.

    Senator Akaka. Thank you very much, Mr. Hainer.
    May I call on Dr. Giese.

STATEMENT OF DALE GIESE, PH.D., FORT BAYARD HISTORICAL SOCIETY, 
                        SILVER CITY, NM

    Dr. Giese. Chairman Akaka, Senator Bingaman, Senator 
Domenici, committee members: I am Dale Giese. I have worked for 
the National Park Service for more than 8 years, mostly in the 
field of history, mostly military history, at Fort Union, a 
military post in New Mexico, and Petersburg Battlefield in 
Virginia. I have also served more than 30 years as a professor 
of history at New Mexico State University and Western New 
Mexico University, and I am testifying for S. 2880.
    In 1866, Major John Pope, commanding officer of the 
Military Division of Missouri, recorded: ``I have established 
only one new post on the frontier''--on the Apache frontier, 
``--that is located near the headwaters of the Mimbres River, 
about 150 miles west of the Rio Grande. This post, with Fort 
Cummings at Cook Spring, Fort Selden on the Rio Grande, Fort 
Stanton on the Bonito River between the Rio Grande and the 
Pecos, form a line of posts covering the southern frontier of 
New Mexico.''
    Because of the Indian danger, there were small ranching and 
mining settlements in the Fort Bayard area before 1866. With a 
great deal of native resistance, the Spanish had begun 
developing the Santa Rita copper mine 60 years previously, 
1804. Silver City and Pinos Altos were rich in minerals. 
Mexican miners worked the arroyos and canyons for placer gold 
as early as 1850.
    As word of gold and silver spread, miners and settlers 
began pouring into the area beginning in 1863. Apache Indians 
viewed these activities as an encroachment upon their lands and 
they offered stiff resistance to these invaders of their 
hunting grounds. Conflicts began to escalate.
    The California Volunteers captured the Apache leader Mangas 
Coloradas near Pinos Altos and took him prisoner to Fort McLane 
near the Grant County Airport. Fort Bayard was established to 
combat this threat to settlement. Conflicts occurred as far as 
Deming, Glenwood, Pinos Altos, and the Silver City mining 
district.
    Fort Bayard's soldiers, of which hundreds were Buffalo 
Soldiers, and their Navajo and Apache scouts on the side of the 
soldiers, participated in many engagements against famous 
Apache war leaders such as Victorio, Nana, and Geronimo. 
Expedition after expedition departed from Fort Bayard to 
capture these Apaches or kill them, and it was no easy task to 
combat these tough, dedicated fighters who were so well adapted 
to their native land.
    The usual story prevailed time and again in the reports of 
lieutenants who found only traces of the Indians. The rain and 
snow, they said, were extreme. The soldiers ran out of 
supplies. Their horses gave out during the chase. Often reports 
of these soldiers concluded with the number of deer or turkey 
they killed. The Indian threat finally ended when Geronimo 
surrendered at Skeleton Canyon in New Mexico in September 1886.
    Fort Bayard as a military post was no longer needed. An 
unusual sequence of events helped to preserve the integrity of 
Fort Bayard when the post was abandoned in 1899.
    In the same year, Surgeon General George Sternberg proposed 
transferring the post of Fort Bayard to the Army medical 
department because of its healing qualities in the high 
altitude and the dry, sunny climate.
    David Kammer, historic surveyor of Fort Bayard Historic 
Preservation Society, for that society recently completed his 
historic survey of the fort in April 2001. The purpose of his 
survey was to include Fort Bayard on the State and National 
Historic Sites register. In his research he came to an 
interesting conclusion. The first 30 years of Fort Bayard was 
very important. However, he began to realize the far-reaching 
influence and importance of the army hospital established in 
1899 and lasting until the period of 1923.
    Kammer's research began focusing on the housing and healing 
of personnel during the sanitorium of the hospital era. In 
1899, the fort became the first sanitorium dedicated to the 
treatment of U.S. Army officers and enlisted men suffering from 
pulmonary tuberculosis. Under Major D.M. Appel and Major George 
E. Bushnell's jurisdiction, outstanding research discoveries 
and procedures were developed and implemented.
    Kammer received recognition for his outstanding work as 
well as Bushnell. Their care and treatment of this dreaded 
disease set world standards for successfully controlling 
tuberculosis until modern medicines were developed. Under these 
physicians' guidance, the post became a self-sufficient 
community with an orchard, dairy cows, cattle, hogs, vegetable 
farm, and bakery. Hundreds of trees, bluegrass, and flower beds 
were planted on or near the parade ground just to freshen the 
air. There was also a small research center with guinea pigs. 
The doctors believed tuberculosis could be held at bay or even 
cured with a strict regimen of fresh fruits, vegetables, and 
exposure to air 24 hours a day.
    During World War II, German prisoners of war were housed at 
Fort Bayard. They were employed in the physical care of the 
buildings and they built and repaired the irrigation system, 
worked on the roads, planted trees, and worked on the cemetery.
    Again, the role of the post changed. The Veterans 
Administration took over and the military post and sanitorium 
became a central hospital for the care and treatment of 
veterans. The post's adjoining military cemetery, dating back 
to 1866, became a national cemetery. Then in 1965 the State of 
New Mexico assumed control of the post as a long-term health 
care facility and presently employs, as Mike said, 380 people.
    Kammer states that: ``Although many of the facilities the 
Army physicians instituted are no longer in existence, the 
present hospital building today is over 80 years old and stands 
as a tribute to their work. It is a remarkable example of turn 
of the century architecture.'' And to this day, Fort Bayard 
continues to play a vital role in the surrounding communities. 
Its continuous use through the years has ensured the post's 
fair state of preservation.
    Some of the buildings date to the late nineteenth century 
and many of them to the early twentieth century. Fort Bayard is 
a tribute to all those civilians and officers and enlisted men 
since its beginning in 1866. Today it continues to offer 
visitors a rare opportunity to see a military post as it would 
have appeared 100 years ago while it continues to grow and 
change with the times.
    Senator Akaka. Dr. Giese, your time is expired.
    Dr. Giese. I have concluded, except I do have 25 letters of 
support from mayors and city councils, etcetera.
    Senator Akaka. Thank you. Thank you very much.
    At this time I would like to ask for any questions from 
Senator Bingaman and Senator Domenici to the two witnesses. 
Senator Bingaman.
    The Chairman. Mr. Chairman, I don't have any questions. I 
appreciate very much the two witnesses testifying. I think 
their testimony is excellent. I appreciate particularly the 
photos that are included in Mr. Hainer's testimony. I think 
they give a very good feel for the condition of the facility at 
this point and I think that is very useful, and also the 
detailed history that Dr. Giese has gone through for us.
    So I hope we can move ahead with this legislation. I think 
designating this a national historic landmark would be an 
appropriate thing to do and would be good for the long term 
future of Fort Bayard. So thank you again, Mr. Chairman, for 
letting this be part of the hearing.
    Senator Akaka. Senator Domenici, any questions?
    Senator Domenici. Yes. Senator Bingaman, I would like to 
join as a cosponsor.
    The Chairman. Very good.
    Senator Domenici. I thank you. But I do think before we 
vote the bill out I would like to have somebody that would 
interpret this language tell me what are the limits and 
obligations of the Federal Government? The concept of a 
national historic landmark is one thing, but when you have 
facilities that are still operating ongoing, what does the 
Federal Government have to do or what can they not do? I do not 
think you are talking about us taking it over and running it as 
a medical facility. I do not see that anywhere here. I think it 
could be understood in that way, perhaps.
    Who would be a person in the Federal Government that would 
interpret this and tell us what it would do?
    The Chairman. I believe the other witnesses we have today 
can probably give us good testimony on that, the Park Service 
and BLM witnesses.
    Our intent--let me just say for the record, we have tried 
here to provide a designation which in no way interferes with 
the continued ownership or operation of the facility as it now 
exists, and I think we have done that and that certainly is the 
purpose.
    Senator Domenici. I thank you very much for letting me 
understand it better and I hope we can pass it soon.
    Senator Akaka. Thank you very much.
    We will continue with the witnesses. Mr. Anderson, please 
proceed with your testimony.

        STATEMENT OF ROBERT ANDERSON, DEPUTY ASSISTANT 
 DIRECTOR, MINERALS, REALTY AND RESOURCE PROTECTION, BUREAU OF 
          LAND MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Anderson. Thank you, Mr. Chairman. Thank you for the 
opportunity to provide the committee with the administration's 
views on S. 2776, the Galisteo Basin Archaeological Sites 
Protection Act. The legislation would enable Federal agencies 
to work cooperatively with private landowners, pueblos, State 
and local governments, and other interested parties to help 
preserve and protect the nationally significant archaeological 
resources of the Galisteo Basin in New Mexico.
    The Bureau of Land Management is currently working to 
develop a comprehensive community-based management program for 
the Galisteo Basin in keeping with Secretary Norton's four C's: 
consultation, cooperation, communication, all in the service of 
conservation. S. 2776 is consistent with this effort and 
therefore the Department of the Interior supports the 
legislation.
    There are three important provisions of S. 2776. First, the 
bill would allow the Secretary of the Interior to enter into 
voluntary cooperative agreements with willing owners of 
archaeological sites on private lands if the private landowners 
are interested in preserving and maintaining the sites. This is 
essential to development of a community-based management plan 
for the basin.
    The second major provision directs the Secretary of the 
Interior to work with the Governor of New Mexico, the New 
Mexico State Land Commissioner, affected Native American 
pueblos, and other interested parties to develop a general 
management plan for the archaeological sites in the Galisteo 
Basin. This direction is also consistent with the current BLM 
management activities in that basin.
    Of the 24 sites referenced in S. 2776, nine are currently 
managed in whole or in part by BLM. Our archaeologists have 
done extensive research on these sites and have developed 
longstanding positive working relationships with the local 
Pueblo Indian communities, the affected State agencies, the 
University of New Mexico, and local conservation organizations 
on all aspects of the protection of the archaeological 
resources of the Galisteo Basin.
    The Department supports the third major provision of S. 
2776, which allows the Secretary of the Interior to acquire 
lands from property owners willing to donate, sell, or exchange 
their land and explicitly provides that the Federal Government 
cannot acquire lands under S. 2776 without the full consent of 
the property owner.
    The Bureau of Land Management is the only Federal agency 
currently managing any of the sites identified in S. 2776 and 
we encourage the committee to consider designating the BLM as 
the lead Federal land managing agency for the preparation and 
implementation of the management plan for the sites referred to 
in section 59(b).
    Thank you again for the opportunity to testify on this bill 
and I would be glad to answer any questions.
    [The prepared statement of Mr. Anderson follows:]

   Prepared Statement of Robert Anderson, Deputy Assistant Director, 
 Minerals, Realty and Resource Protection, Bureau of Land Management, 
                       Department of the Interior

    Thank you for the opportunity to provide the Committee with the 
Administration's views on S. 2776, the Galisteo Basin Archaeological 
Sites Protection Act. S. 2776 would enable Federal agencies to work 
cooperatively with private land owners, Pueblos, State and local 
governments, and other interested parties to help preserve and protect 
the nationally significant archaeological resources of the Galisteo 
Basin in New Mexico. The Bureau of Land Management is currently working 
to develop a comprehensive community-based management program for the 
Galisteo Basin in keeping with Secretary Norton's 4 C's--consultation, 
cooperation, communication, all in the service of conservation. S. 2776 
is consistent with this effort, and, therefore, the Department of the 
Interior supports the legislation.
    The lands surrounding Santa Fe and the area known as the Galisteo 
Basin contain a rich cultural heritage of national significance. The 
first Spanish explorations in this area found thriving Pueblo Indian 
communities dating back to prehistoric times. Today, the ruins of these 
pueblos commemorate both the achievements of the ancestral Pueblo 
people and the events which shaped the early history of New Mexico and 
the Southwest.
    Lands to the north of Santa Fe are Pueblo Indian reservations, 
while the lands to the east and west are largely public lands managed 
by the BLM and the U.S. Forest Service. Portions of this land, such as 
the Pecos Wilderness and the La Cienega Area of Critical Environmental 
Concern (ACEC), have been set aside for special protection; other areas 
are managed under the principle of ``multiple use'' and other laws, 
such as the National Historic Preservation Act.
    The southern part of Santa Fe County has a pattern of mixed 
ownership, with private lands predominating. Development of this area 
is proceeding at a rapid pace as the population of Santa Fe County 
continues to grow. Both the State of New Mexico and the BLM manage key 
parcels in this area.
    Natural processes take a toll on the cultural resources, but the 
threats posed by human uses are potentially more serious. Vandalism and 
careless excavations in the prehistoric and early historic ruins are a 
source of great concern to modern Pueblo peoples and threaten some of 
the most important archeological sites with wholesale destruction. 
Development of both residential and commercial real estate presents 
risks to the ruins, trails, petroglyphs, and other traces of history 
and prehistory that remain in this landscape. Illegal trash dumping and 
other activities of this type have had a serious adverse impact on the 
natural and cultural resource values.
    The Department of the Interior supports the three main provisions 
of S. 2776. First, the bill would allow the Secretary of the Interior 
to enter into voluntary cooperative agreements with willing owners of 
archeological sites on private lands, if the private land owners are 
interested in preserving and maintaining the sites. This is essential 
to the development of a community-based management plan for the Basin.
    The second major provision directs the Secretary of the Interior to 
work with the Governor of New Mexico, the New Mexico State Land 
Commissioner, affected Native American pueblos, and other interested 
parties to develop a general management plan for the archaeological 
sites in the Galisteo Basin. This direction is consistent with current 
BLM management activities in the Galisteo Basin. Of the 24 sites 
referenced in S. 2776, nine (9) are currently managed in whole or in 
part by the BLM. The other sites are on state or private land. BLM 
archaeologists have done extensive research on these sites, and have 
developed long-standing, positive working relationships with the local 
communities of La Cieneguilla and La Cienega, Pueblo Indian 
communities, the affected state agencies, the University of New Mexico, 
and local conservation organizations on all aspects of the protection 
of the archaeological resources of the Galisteo Basin.
    Through its planning process, the BLM has set aside land near La 
Cienega for special protection in its Resource Management Plan. The 
area encompassed by this plan includes the BLM-managed portions of La 
Cienega Pueblo and Petroglyphs, La Cienega Pithouse Village, and La 
Cieneguilla Petroglyphs. Management prescriptions for the BLM sites 
include grazing exclusions, withdrawal from mineral entry, and a No-
Surface-Occupancy stipulation for oil and gas development. These 
management prescriptions were developed by the BLM in consultation with 
Native American tribal governments, state and local governments, 
stakeholders, and the general public, through participation 
opportunities afforded by land use planning and environmental review 
processes.
    The BLM manages additional sites in the Galisteo Basin: 68 acres at 
Burnt Corn Pueblo; 40 acres at Petroglyph Hill; 190 acres at Pueblo 
Blanco; 70 acres at Pueblo Galisteo/Las Madres; and 80 acres at San 
Lazaro Pueblo, a National Historic Landmark. The BLM's decisions on 
appropriate uses of the areas must take into consideration the impact 
of approved activities on the rich cultural and archaeological 
resources which are present there.
    The Department supports the third major provision of S. 2776, which 
allows the Secretary of the Interior to acquire lands from property 
owners willing to donate, sell, or exchange their land--and explicitly 
provides that the Federal government cannot acquire lands under S. 2776 
without the full consent of the property owner. The BLM's Taos Field 
Office has been very involved with local government, stakeholders, and 
interest groups over the past several years to improve our resource 
management efforts in the Basin. The BLM is working with the Trust for 
Public Lands, Santa Fe County, the county lands commission, and local 
community groups to acquire critical lands within a 5,000 acre green 
belt, to protect its open space and natural resource values. The BLM, 
Santa Fe County and the local community have been working together to 
develop a management strategy for the Cerrillos Hills, a prehistoric/
historic mining district in the west-central part of the Basin. The BLM 
plans to continue these efforts to protect the cultural resources of 
the Galisteo Basin.
    The Bureau of Land Management is the only Federal agency currently 
managing any of the sites identified in S. 2776. For this reason, we 
encourage the Committee to consider designating the BLM as the lead 
Federal land managing agency for the preparation and implementation of 
the management plan for the sites referred to in Section 5(b).
    Thank you again for the opportunity to provide the Committee with 
the Administration's views on S. 2776. I would be glad to answer any 
questions.

    Senator Akaka. Thank you very much, Mr. Anderson.
    Mr. Jeffrey Taylor from the National Park Service, will you 
please proceed.

 STATEMENT OF JEFFREY K. TAYLOR, ASSISTANT DIRECTOR, OFFICE OF 
 LEGISLATIVE AND CONGRESSIONAL AFFAIRS, NATIONAL PARK SERVICE, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Taylor. Mr. Chairman, thank you for inviting me to 
represent the administration on six of the bills that are 
before the subcommittee today. The first one I would like to 
speak on is S. 2623, which is a bill authorizing the Secretary 
to establish the Cedar Creek Battlefield and Belle Grove 
Plantation National Historical Park within the existing 
Shenandoah Valley Battlefields National Historic District in 
the Commonwealth of Virginia.
    While the Department recognizes the appropriateness of 
designating a Cedar Creek-Belle Grove unit of the National Park 
System, we do recommend that the committee defer action on S. 
2623 during the remainder of the 107th Congress. To meet the 
President's initiative to eliminate the deferred maintenance 
backlog, we need to continue to focus our resources on caring 
for the existing areas in the National Park System. Park units 
of a similar size, once fully operational, can have annual 
operational costs of between $1 million and $2 million. That 
represents a significant amount compared to the $9.3 million 
that was requested in fiscal year 2003 for park base 
operational increases across the entire National Park System.
    S. 2623 would establish an approximately 3,000-acre Cedar 
Creek Battlefield and Belle Grove Plantation National 
Historical Park within the Shenandoah Valley of northwestern 
Virginia. It would establish a boundary for the national 
historical park within which the existing key partners would 
continue to own, operate, and manage visitor anchor sites 
within the park boundary. The Park Service would be authorized 
by this bill to acquire the remaining property from willing 
landowners, completing preservation of the historic and natural 
landscape.
    This bill would also establish the Cedar Creek Battlefield 
and Belle Grove Plantation National Historical Park Advisory 
Commission to ensure local, regional, and national involvement 
in the preparation and implementation of a management plan for 
the national historical park.
    The legislation would also permit the Belle Grove 
Plantation and Cedar Creek Battlefield Foundation to continue 
to privately own their respective resources critical to the 
story of Cedar Creek, while permitting the National Park 
Service to acquire adjacent lands within the boundary from 
willing sellers only. The Cedar Creek Battlefield Foundation 
may continue to conduct its reenactments, a primary purpose of 
the foundation. It is anticipated these organizations would 
remain as full partners within the boundary, working together 
with the National Park Service and other partners in a regional 
collaboration.
    The second bill I would like to speak on today is the 
companion bills of S. 2640 and H.R. 3421. Both of these bills 
authorize the Secretary of the Interior to provide supplemental 
funding that is necessary to assist the State of California or 
local school districts in providing educational services and 
facilities for students attending schools located within 
Yosemite National Park.
    In addition, S. 2640 would authorize the expenditure of 
park funds in support of a regional transportation system 
outside Yosemite and would extend the advisory commissions for 
both Golden Gate National Recreation Area and Manzanar National 
Historic Site.
    The Department supports both S. 2640 and H.R. 3421 as we 
believe that students who attend schools in Yosemite should 
have access to the same educational services and facilities 
found elsewhere in the State of California. However, we do not 
want this to set a precedent that parks should take over 
responsibility for schools or create an NPS school system.
    The Department also supports the other provisions in S. 
2640 regarding expenditure of funds outside Yosemite and, if 
amended, the continuation of the two advisory commissions.
    The next bill that I would like to speak on is S. 2788. 
This is a bill that revises the boundaries of Wind Cave 
National Park in the State of South Dakota. At this time the 
Department does not support S. 2788. The Department is 
committed to eliminating the deferred maintenance backlog, 
which of course is a high priority of the President. We need to 
continue to focus our resources on existing areas in the 
National Park System. For this reason, the Department will only 
support additions to existing parks that involve no new costs 
or minimal costs to the Federal Government for land 
acquisition, operations, and maintenance.
    This legislation does authorize the Secretary of the 
Interior to acquire 5,675 acres adjacent to Wind Cave National 
Park. A ranching family currently owns 5,555 acres of the land 
and has indicated they would be willing to sell the property to 
the United States. Another 40 acres of land from a willing 
seller would preserve a viewshed for the park. The remaining 80 
acres would be an administrative jurisdiction transfer from the 
Director of the BLM to the Director of the National Park 
Service.
    The acquisition cost for the proposal was estimated at $5 
million to $6 million, although actual costs will not be known 
until the land appraisals are completed.
    The next bill is S. 2880. This bill, as you have heard 
already today, would designate Fort Bayard Historic District as 
a national historic landmark and would authorize the Secretary 
of the Interior to provide technical and financial assistance 
for protecting the landmark.
    The Department recommends that the bill be amended to 
direct the National Park Service to conduct additional research 
to evaluate whether Fort Bayard is eligible for national 
historic landmark designation. National historic landmarks 
designated by the Secretary of the Interior share two essential 
qualities: they are places that illustrate a nationally 
significant theme, trend, event, or person; and they retain a 
high degree of integrity, that is authenticity, to the period 
to which the property was significant.
    The national historic landmarks program has an established 
and time-tested process for nominating properties of 
exceptional importance in illustrating or interpreting the 
heritage of the United States. This process includes an 
evaluation by the National Park System Advisory Board to ensure 
that designated historic places possess the highest level of 
significance and historical integrity.
    Because of this important evaluation process, it is 
extremely rare for a national historic landmark to be 
designated through legislative action. It is also rare to 
authorize financial assistance to a single non-NPS site. It 
would be more appropriate to apply for funding through the Save 
America's Treasures grant program, which is well suited for 
historic properties such as this one.
    We would be happy to continue working with the New Mexico 
State Historic Preservation Office to evaluate the property's 
potential national significance.
    I do see my time is up. I do have one more bill if that is 
all right, Mr. Chairman.
    Senator Akaka. Mr. Taylor, since you have so many bills to 
speak about, you may exceed the time.
    Mr. Taylor. Thank you, Mr. Chairman.
    The final bill is H.R. 3858, a bill to expand the boundary 
of the New River Gorge National River by 1,962 acres and to 
exchange approximately one quarter acre of private land with an 
adjacent private landowner for a quarter acre of Park Service 
land.
    The Department is unable to support H.R. 3858 in its 
entirety at this time. The Department would ask that Congress 
defer action on subsection (a), regarding a boundary 
adjustment, until additional planning addressing the 
acquisition and cost of additional lands at New River Gorge 
National River has been completed. The Department does, 
however, support subsection (b) of this bill as it provides for 
an even land exchange involving no cost or nominal cost.
    The legislation proposes to adjust the boundary of New 
River Gorge to include seven tracts of land encompassing 1,962 
acres. The addition of these lands within the park's boundary 
would complete the rim to rim acquisition of lands on both 
sides of the gorge, permanently protecting its outstanding 
scenery in accordance with the legislation that originally 
designated the park. However, we have not yet completed a 
formal study with public involvement to determine the 
appropriateness of including these lands within the park.
    The last provision of this bill, as I mentioned before, 
exchanges a small quarter acre for a quarter acre; that we do 
support.
    New River Gorge was established in 1978 to conserve and 
protect 53 miles of the New River as a free-flowing waterway. 
It is located within the National Coal Heritage Area and the 
New River is one of 14 rivers designated as an American 
Heritage River. Completion of the planning process at New River 
Gorge National River will ensure that there is adequate public 
review regarding our land acquisition needs.
    I have one more bill here we go. This is H.R. 3786, Mr. 
Chairman. It is a bill that would revise the boundary of the 
Glen Canyon National Recreation Area in the States of Utah and 
Arizona. We do support H.R. 3786. The revision of the boundary 
would not contribute to the National Park Service maintenance 
backlog because the exchange would not result in any additional 
facilities, increased operating costs, or additional staffing.
    The current owner of the private property to be exchanged 
initiated this proposal and, although the Service has not yet 
appraised the parcels involved, the owner's appraisal indicates 
that the Service will receive lands with a higher value than 
those the Service would exchange.
    This bill would amend Public Law 92-593 and give the 
Secretary the authority through an exchange to change the 
boundary of Glen Canyon by adding 152 acres and deleting 370 
acres in Kane County, Utah. It would also revise the authorized 
acreage of the park from 1,236,880 acres to 1,256,000 acres. 
This is needed to correct the total acreage within the park 
boundary that was incorrectly identified in the park's enabling 
legislation. Correction of the authorized acreage ceiling also 
would not add any new facilities, increase operating costs, or 
require additional staffing.
    H.R. 3786 enjoys a broad cross-section of support. The 
nearest communities to the lands proposed for exchange, Big 
Water, Utah, and Page, Arizona, recognize the importance of 
protecting the national recreation area.
    Mr. Chairman, this concludes my remarks and I would be 
happy to entertain any questions you may have.
    [The prepared statements of Mr. Taylor follow:]

Prepared Statement of Jeffrey K. Taylor, Assistant Director, Office of 
     Legislative and Congressional Affairs, National Park Service, 
                       Department of the Interior

                                S. 2623

    Thank you for the opportunity to testify on S. 2623, a bill to 
authorize the Secretary to establish the Cedar Creek Battlefield and 
Belle Grove Plantation National Historical Park within the existing 
Shenandoah Valley Battlefields National Historic District in the 
Commonwealth of Virginia.
    While the Department recognizes the appropriateness of designating 
a Cedar Creek Belle Grove unit of the National Park System, we 
recommend that the Committee defer action on S. 2623 during the 
remainder of the 107th Congress. To meet the President's initiative to 
eliminate the deferred maintenance backlog, we need to continue to 
focus our resources on caring for existing areas in the National Park 
System. Park units of a similar size, once fully operational, can have 
annual operational costs of $1-2 million, which is a significant amount 
compared to the $9.3 million that was requested in FY 2003 for park 
base operational increases across the entire National Park System.
    S. 2623 would establish an approximately 3,000-acre Cedar Creek 
Battlefield and Belle Grove Plantation National Historical Park in the 
Shenandoah Valley of Northwestern Virginia. The new park would 
encourage partnerships and build on years of local preservation 
efforts. Although originally conceived as a battlefield park, the local 
partners expanded the purpose of the new park to include a much broader 
scope of history, while embracing the key goal of promoting the Civil 
War heritage of the Shenandoah Valley. S. 2623 would establish a 
boundary for the National Historical Park within which the existing key 
partners will continue to own, operate, and manage visitor ``anchor'' 
sites within the park boundary. The Park Service would be authorized to 
acquire the remaining property from willing landowners completing 
preservation of the historic and natural landscape.
    The bill would also establish the Cedar Creek Battlefield and Belle 
Grove Plantation National Historical Park Advisory Commission to ensure 
local, regional, and national involvement in the preparation and 
implementation of a management plan for the national historical park 
and to identify additional sites of significance outside the park 
boundary. Finally, S. 2623 would authorize the Secretary to enter into 
cooperative agreements with private landowners, non-profit 
organizations, governmental entities, and others for the purpose of 
preserving, interpreting, operating, maintaining, and managing park 
resources.
    For over 135 years there have been local efforts to protect the 
Civil War heritage of the Shenandoah Valley. Numerous States have 
acknowledged the importance of the Shenandoah Valley by placing 
monuments and memorials on the historic landscape to honor the lives 
lost in battle.
    The Battle of Cedar Creek, also known as the Battle of Belle Grove, 
was a major event of the Civil War and the history of this country. It 
represented the end of the Shenandoah Valley campaign of 1864. This 
victory by Union forces had major political implications, as well in 
contributing to the reelection of President Abraham Lincoln. With 
President Lincoln's reelection, the resolve of the Union side to 
continue the war was assured.
    The Plantation of Belle Grove was at the center of the decisive 
battle of Cedar Creek. In addition to the value of the site itself, the 
Belle Grove Plantation permits the story of the battle, the Shenandoah 
Valley, and the way of life in America before, during, and after the 
Civil War to be told. The site also includes a significant Manor House 
and a slave cemetery, among many other important elements. As such, the 
recognition in this legislation of both the battle and the way of life 
at that time enormously adds to our appreciation of the significance 
and meaning of the Shenandoah Valley and the Civil War. The park 
boundary represents portions of the historical core of the battlefield 
and includes the remaining earthworks, the Vermont Monument, and the 
New York Monument.
    The Belle Grove Plantation Manor House was built in 1797 with 
design assistance from President Thomas Jefferson. The Manor House was 
saved by the National Trust for Historic Preservation and has been open 
to the public as a National Trust Historic Site and private museum 
since 1967. Several other private historic homes within the boundary 
are listed on the National Register of Historic Places and the Virginia 
Historic Register. In addition, in 1969, the National Park Service 
formally honored the national significance of the Shenandoah Valley in 
the Civil War with the designation of the Cedar Creek and Belle Grove 
National Historic Landmark.
    Due to a unique combination of natural features, the area around 
Cedar Creek has a nearly uninterrupted history of human occupation, as 
evidenced by archaeological remains. The park also memorializes the 
important stories of the area including how Belle Grove Plantation was 
constructed and operated by African-American slaves who also used caves 
and caverns in and around Cedar Creek as part of the Underground 
Railroad.
    The legislation would permit the Belle Grove Plantation and the 
Cedar Creek Battlefield Foundation to continue to privately own their 
respective resources critical to the story of Cedar Creek, while 
permitting the National Park Service to acquire adjacent lands within 
the boundary from willing sellers only. The Cedar Creek Battlefield 
Foundation may continue to conduct its reenactments, a primary purpose 
of the Foundation. It is anticipated that these organizations will 
remain as full partners within the boundary, working together with the 
National Park Service and other partners in a regional collaboration.
    The legislation also fully implements the purposes of the 
Shenandoah Valley Battlefields National Historic District and 
Commission Act of 1996 (Public Law 104-333, Title VI, Section 606) and 
strengthens the already valuable partnership between the National Park 
Service and the recently created Shenandoah Valley Battlefields 
Foundation. It responds to the findings of the previous Special 
Resources Study, prepared by the National Park Service, and the 
Foundation's approved management plan for the National Historic 
District.
    After the Civil War Advisory Commission recognized the significance 
of and threats to a great number of battlefields in the Shenandoah 
Valley, Congress responded with legislation to establish a national 
park unit that could have potentially included 12 battlefield units in 
excess of 100,000 acres. The National Park Service, at that time, 
opposed this as the wrong approach to protecting this historic 
landscape, and recommended a heritage partnership instead. As a result, 
Congress established both a National Historic District to function as 
the heritage partnership, and authorized the Secretary of the Interior 
to prepare a Special Resource Study to determine ``whether the District 
or components thereof meet the criteria for designation as a unit of 
the National Park Service.''
    The Special Resource Study analyzed an approximately 93,000-acre 
region including 10 battlefield sites. It determined that there is a 
current need for direct National Park Service management on core 
portions of the Cedar Creek Battlefield within a study area for that 
battlefield that consisted of 15,000 acres. The Shenandoah Valley 
Battlefields Foundation and other non-profit and public entities will 
preserve lands at other battlefield sites in the National Historic 
District.
    The bill is supported by the Cedar Creek Battlefield Foundation, 
the National Trust for Historic Preservation, Belle Grove Incorporated, 
the Shenandoah Valley Battlefields Foundation, and the Counties of 
Frederick, Shenandoah, and Warren, as well as the towns of Strasburg 
and Middletown, demonstrating that the park proposal has broad local 
backing.
    Should the Committee proceed with the legislation, we believe some 
amendments are needed to clarify various provisions and to conform the 
language to that used for other units of the National Park System. We 
look forward to working with you and the sponsors if this bill moves 
forward.

                           S. 2640/H.R. 3421

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 2640 and H.R. 3421. Both of these 
bills would authorize the Secretary of the Interior to provide 
supplemental funding that is necessary to assist the State of 
California or local school districts in providing educational services 
and facilities for students attending schools located within Yosemite 
National Park. In addition, S. 2640 would authorize the expenditure of 
park funds in support of a regional transportation system outside 
Yosemite National Park, and would extend the advisory commissions for 
both Golden Gate National Recreation Area and Manzanar National 
Historic Site. On December 10, 2001, the Department presented testimony 
on H.R. 3421 before the subcommittee on National Parks, Recreation, and 
Public Lands of the House Resources Committee.
    The Department supports S. 2640 and H.R. 3421, as we believe that 
students who attend schools in Yosemite National Park should have 
access to the same educational services and facilities found elsewhere 
in the State of California. However, we do not want this to set a 
precedent that parks should take over responsibility for schools or 
create an NPS school system. The Department also supports the other 
provisions in S. 2640 regarding the expenditure of funds outside 
Yosemite National Park and if amended, the continuation of the two 
advisory commissions.
    Schools have been located within Yosemite National Park for over 
125 years to serve the needs of park employees and their children. At 
present, two elementary schools are located within the park at Wawona 
and in Yosemite Valley. A third elementary school and a small high 
school are located in El Portal, the park's administrative site located 
on federal property just outside the park boundary. Most students 
attend the larger county high school in Mariposa because of the lack of 
opportunity for a comprehensive program at the El Portal school.
    The Yosemite Valley School has about 46 students in grades 
kindergarten through eighth grade, divided into three classes. The 
amount of funding from the State of California, according to a formula 
based on average daily attendance, actually supports only two teachers.
    The elementary school in El Portal has 50 students in seven grades, 
divided into multi-graded classrooms. The Wawona school is like the old 
``one-room'' schoolhouse, with 20 children in grades K-8, and one 
teacher. Because the current funding formula provides for only one 
teacher, and the maximum teacher/student ratio has been reached, the 
school is unable to serve more than 20 students. Consequently, there 
have been instances in which parents were left with the choice of 
either home-schooling their children or transporting them on their own 
to schools elsewhere. Some parents have elected these options 
voluntarily because of the conditions at the Wawona school.
    Because the schools in the park are located long distances from the 
administrative offices of their school districts, there has been 
limited access to services that are normally available to students that 
attend schools elsewhere. For example, access to teachers to serve 
students with special needs is very limited, and road and weather 
conditions can often further restrict teachers' abilities to reach the 
park. Subjects such as band, art, music, choir, or even physical 
education are provided only if parents are able to find additional 
funding to hire an aide. Many facilities are in need of repair or do 
not meet state or federal standards.
    The quality of education that students receive in these schools 
suffers as a result of lack of funding and staffing. For example, 
teachers who teach only one grade level can focus on curriculum and 
standards for that grade, while teachers in the Yosemite schools are 
responsible for multiple grade levels. In addition to their educational 
duties, they must also tend to administrative duties normally performed 
by other employees. As a result, teachers at the Yosemite schools are 
unable to give the time or attention necessary to provide the quality 
of education that the students deserve.
    Recruitment and retention of employees at Yosemite National Park is 
also adversely affected by the quality of the park schools. Many highly 
qualified NPS employees with school age children who might otherwise be 
interested in applying for jobs at Yosemite are discouraged from doing 
so because of the school situation. Recently, a highly qualified 
individual declined to accept an offer for a division chief position at 
the park after realizing that the schools could not meet the special 
needs of his child. Park employees often cite the schools as a major 
factor in their decision to transfer from Yosemite to other 
assignments.
    Both S. 2640 and H.R. 3421 authorize the Secretary of the Interior 
to enter into cooperative agreements with the local school districts 
for the maintenance and minor upgrades of facilities, and the 
transportation of students to and from school. The Secretary may adjust 
the amounts made available to local school districts if State and local 
funding of schools fall below current funding levels. While we strongly 
believe that the responsibility for providing educational services 
rests with the State of California, we realize that the quality of 
education received by the children of park employees and others who 
attend the Yosemite schools is dependent on the resources of the local 
school districts. We believe that this legislation is a start at 
providing the means to improve the schools in Yosemite National Park.
    Section 4 of S. 2640 addresses regional transportation at Yosemite 
National Park. The Department has long supported the concept of public 
transportation providing access to Yosemite National Park. The 1980 
General Management Plan identified the development of a regional 
transportation system as the long-term approach for transporting people 
to Yosemite National Park. In 1999 Mariposa, Merced, and Mono counties 
created a Joint Powers Authority as an entity to implement the Yosemite 
Area Regional Transportation System (YARTS) and entered into a 
Cooperative Agreement with Yosemite National Park. YARTS provided an 
attractive alternative for visitors and employees without having to 
replace the use of private cars. NPS participated in the initial 
funding of this project using fee demonstration program authority. In 
2001, YARTS carried over 38,000 passengers, including park employees, 
during Yosemite's prime visitor season (May through September). Many of 
these visitors chose to leave their cars at their motels or other 
locations outside the park. By choosing YARTS to access the Yosemite 
Valley, over 11,000 parking places were made available during the 
summer. YARTS has been successful in providing a quality alternative to 
automobile travel.
    Entering into its third year of operations, YARTS has had to reduce 
the number of runs it provides due to funding shortfalls. Funding is no 
longer coming from appropriated funds because the agency lacks the 
authority to expend funds outside the park boundary. The authority 
provided through previous appropriations bills has expired. 
Nonetheless, YARTS has been enormously successful again this summer and 
the demand for the service continues to grow.
    The regional transportation system is an important means to solve 
Yosemite's parking and congestion issues by reducing the amount of 
infrastructure development within the park, and thus substantially 
reducing the funding requirements for implementing the Yosemite Valley 
Plan. This bill amends existing legislation by adding Yosemite National 
Park to an authorization that allows Zion National Park to enter into 
agreements and expend funds outside the boundaries of the park for 
transportation purposes.
    Section 5 of S. 2640 would extend the advisory commissions for 
Golden Gate National Recreation Area and the Manzanar National Historic 
Site. The advisory commissions for these two parks provide the NPS with 
important input from the local community on a variety of management 
issues.
    The Manzanar National Historic Site Advisory Commission has been 
composed of 11 members appointed by the Secretary. The commission 
advises the NPS on development issues and on the interpretation of the 
site. Some of the members were internees at Manzanar during World War 
II. Others are prominent citizens of the East Side of the Sierra. The 
commission expired last spring at a critical time as the Manzanar 
National Historic Site is completing the interpretive design work for 
the visitor center in the former auditorium of the camp.
    The Golden Gate National Recreation Area commission is composed of 
18 members nominated primarily by the counties in which the park is 
located. The purpose of the Golden Gate NRA advisory commission is to 
advise on general policies and matters related to planning, 
administration and development for this 30-year-old park. The 
commission has worked side by side the park staff for these 30 years. 
Its role as a public hearings board is crucial to the numerous projects 
and management decisions that are being considered by this large urban 
park. We would like to work with the committee on an amendment 
regarding the representation of recreational users on the commission.

                                S. 2788

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department on S. 2788, a bill to revise the boundary of Wind Cave 
National Park in the State of South Dakota.
    The Department does not support S. 2788. The Department is 
committed to eliminating the deferred maintenance backlog. We need to 
continue to focus our resources on existing areas in the National Park 
System. For this reason, the Department will only support additions to 
existing parks that involve no new cost or minimal cost to the Federal 
government for land acquisition, operations, and maintenance.
    Wind Cave National Park, established in 1903, is one of the 
Nation's first national parks and the first cave set aside for 
protection. The cave itself, after which the park is named, is one of 
the world's oldest, longest, and most complex cave systems with more 
than 104 miles of mapped passages. The cave is well-known for its 
exceptional display of boxwork, a rare honeycomb-shaped formation 
protruding from the cave's ceilings and walls. While the cave is the 
focal point of the park, the land above the cave is equally impressive 
with 28,295 acres of rolling prairie, majestic forests, and pristine 
creeks. Legislation passed in 1912 established the Wind Cave National 
Game Preserve creating a permanent national range for buffalo and other 
Native American game animals as may be placed therein. In 1935, the 
Wind Cave National Game Preserve was transferred into Wind Cave 
National Park.
    This legislation would authorize the Secretary of the Interior to 
acquire 5,675 acres adjacent to Wind Cave National Park. A ranching 
family currently owns 5,555 acres of the land and has indicated they 
would be willing to sell the property to the United States as a lasting 
legacy to their father. Another 40 acres of land from a willing seller 
would preserve a viewshed for the park. The last 80 acres would be an 
administrative jurisdiction transfer from the Director of the Bureau of 
Land Management to the Director of the National Park Service. The 
acquisition cost for the proposal is estimated at $5 to $6 million 
although actual costs will not be known until the land appraisals are 
completed. In many cases, non-profit groups are willing to purchase the 
properties and hold them for a short period of time until the National 
Park Service is able to designate land acquisition funding.
    S. 2788 would help protect the mixed-grass prairie and ponderosa 
pine forest and provide recreational opportunities for day-hikers and 
backpackers who seek solitude in the park's backcountry. The additional 
land will preserve a viewshed and improve wildland fire management, 
helping to reduce the risk of a catastrophic wildfire. Archaeological 
sites, such as a thousand year-old buffalo jump over which early Native 
Americans once drove the bison they hunted, exist on the land presently 
owned by the ranching family.
    The current annual base funding for Wind Cave National Park is 
$1.892 million. If enacted, additional funding would be required due to 
anticipated increases in the number of FTEs needed for increased 
wildlife and interpretive responsibilities. In addition, construction-
funding of $1.817 million would be necessary for the removal and 
installation of fencing.

                                S. 2880

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 2880. This bill would 
designate Fort Bayard Historic District as a National Historic Landmark 
and would authorize the Secretary of the Interior to provide technical 
and financial assistance for protecting the Landmark.
    The Department recommends that the bill be amended to direct the 
National Park Service to conduct additional research to evaluate 
whether Fort Bayard is eligible for National Historic Landmark 
designation. National Historic Landmarks designated by the Secretary of 
the Interior share two essential qualities: they are places that 
illustrate a nationally significant theme, trend, event, or person, 
and, they retain a high degree of integrity, that is, authenticity, to 
the period in which the property was significant.
    Authorized by the Historic Sites Act of 1935 (Public Law 74-292) 
and regulated under 36 CFR Part 65, the National Historic Landmarks 
Program has an established and time-tested process for nominating 
properties of exceptional importance in illustrating or interpreting 
the heritage of the United States. This process includes an evaluation 
by the National Park System Advisory Board to ensure that designated 
historic places possess the highest level of significance and 
historical integrity. Because of this important evaluation process it 
is extremely rare for a National Historic Landmark to be designated 
through legislative action. It is also rare to authorize financial 
assistance to a single non-NPS site; it would be more appropriate to 
apply for funding through the Save America's Treasures grant program, 
which is well suited for historic properties such as this one.
    Located in southwestern New Mexico, Fort Bayard illustrates several 
important chapters in American military history and the settlement of 
the southwestern United States. From 1866 to 1899, Fort Bayard 
functioned as an Army post while its soldiers, many of them African-
American, or Buffalo Soldiers, protected settlers working in nearby 
mining districts. The area was later developed by the U.S. War 
Department as a general hospital for use as a military sanatorium.
    Fort Bayard Historic District was listed on the National Register 
of Historic Places on July 7, 2002 at the state level of significance. 
In transmitting the nomination to the National Park Service in May 
2002, the New Mexico State Historic Preservation Office requested the 
opinion of the Keeper of the National Register of Historic Places 
regarding the potential for the property to have national significance. 
Upon listing the property, the Keeper of the National Register 
concurred with the State Historic Preservation Office that, from the 
documentation presented, there no longer remains enough of the pre-1922 
facility in order to justify a national level of significance as the 
first Army TB hospital. Much of the pre-1922 complex was destroyed and 
replaced with larger and more modern facilities when the Veterans 
Administration assumed administrative responsibilities in 1922.
    This assessment concurs with an earlier opinion developed by 
National Park Service Historian, Robert Utley, that although Fort 
Bayard was a ``key outpost'' in the Apache Wars from the 1860s through 
the 1880s, ``expansion and modernization of the Veterans Hospital has 
obliterated much of Old Fort Bayard'' (Fort Bayard, National Survey of 
Historic Sites and Buildings, 1958).
    In its review of the documentation this summer, the National 
Register recommended that the State Historic Preservation Office 
consider evaluating the property's national significance for its 
association with the post-1922 Veterans Administration proposed 
development of the sanatorium as ``the largest institution of its kind 
in the world.'' At present, we do not have enough information to 
evaluate the national significance of the Veterans Administration's use 
of the facility. For these reasons, we urge that S. 2880 be amended to 
direct the National Park Service to conduct a study of Fort Bayard to 
determine if it qualifies for designation as a National Historic 
Landmark.
    We would be happy to continue working with the New Mexico State 
Historic Preservation Office to evaluate the property's potential 
national significance during the post-1922 Veterans Administration 
period. This work would ensure that the site receive the appropriate 
level of historic recognition.

                               H.R. 3786

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 3786. This bill would revise 
the boundary of the Glen Canyon National Recreation Area in the States 
of Utah and Arizona.
    The Department supports H.R. 3786. The revision of the boundary 
would not contribute to the National Park Service (``Service'') 
maintenance backlog because the exchange would not result in any 
additional facilities, increased operating costs, or additional 
staffing. The current owner of the private property to be exchanged 
initiated this proposal and although the Service has not yet appraised 
the parcels involved, the owner's appraisal indicates that the Service 
will receive lands with a higher value than those the Service would 
exchange. The owner has indicated, however, that no cash payment to 
equalize values would be required, which should remove the need for any 
land acquisition funds.
    H.R. 3786 would amend Public Law 92-593 and give the Secretary of 
the Interior the authority, through an exchange, to change the boundary 
of Glen Canyon National Recreation Area (``Park'') by adding 152 acres 
and deleting 370 acres in Kane County, Utah. The bill would also revise 
the authorized acreage of the park from 1,236,880 acres to 1,256,000 
acres. This change would correct the total acreage within the park 
boundary that was incorrectly identified in the park's enabling 
legislation. Correction of the authorized acreage ceiling also would 
not add any new facilities, increase operating costs, or require 
additional staffing.
    The 152 acres that the Service would acquire are located east of 
Highway 89, approximately 5 miles south of Big Water, Utah and are 
contiguous to the existing park boundary. The 370 acres that the 
Service would exchange are located west of Highway 89 and are adjacent 
to privately owned lands. Although within the boundary of the 
recreation area, the 370 acres are physically and visually isolated 
from the rest of the recreation area by topographic features.
    The owner of the private land has had an appraisal completed on the 
lands that are proposed for exchange. If this legislation were enacted, 
the Service would conduct its own appraisal on the two parcels. 
However, the owner's appraisal determined that the 152-acre parcel 
($5,500 per acre for a total appraised value of $836,000), which the 
Service would receive, was worth approximately seven times more per 
acre than the 370-acre parcel ($750 per acre for a total appraised 
value of $277,500) the Service would exchange.
    H.R. 3786 would also correct the acreage ceiling error stated in 
Public Law 92-593, the 1972 enabling legislation for Glen Canyon 
National Recreation Area. Public Law 92-593 incorrectly estimated Glen 
Canyon National Recreation Area's acreage within the boundary to be 
1,236,880 acres. Using the same boundary identified on the map 
referenced in the 1972 enabling legislation, application of modern map 
reading and geographic information system technologies have determined 
that an acreage of 1,256,000 acres more accurately reflects the amount 
of land within the 1972 boundary.
    H.R. 3786 enjoys a broad cross section of support. The nearest 
communities to the lands proposed for exchange, Big Water, Utah and 
Page, Arizona, recognize the importance of protecting the National 
Recreation Area. Also, this exchange would provide an opportunity for 
private development at one of the main access points to lands held by 
the Utah School and Institutional Trust Lands Administration (SITLA). 
Such private development could enhance the 40,000 acres held by SITLA 
and is supported by the State of Utah and Kane County, Utah.
    In previous testimony before the House Subcommittee, we recommended 
two changes - to correctly identify and date the map, as well as allow 
the National Park Service to enter into agreement with the landowner 
regarding how the exchanged lands will be managed. Those changes have 
been incorporated into the bill before you now.

                               H.R. 3858

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 3858, a bill to expand the 
boundary of the New River Gorge National River by 1,962 acres and to 
exchange approximately , acre of private land with an adjacent private 
landowner for a 1/4 acre of park service land.
    The Department is unable to support H.R. 3858 in its entirety at 
this time. The Department would ask that Congress defer action on 
subsection (a), regarding a boundary adjustment, until additional 
planning addressing the acquisition and costs of additional lands at 
New River Gorge National River has been completed. The Department does 
however support subsection (b) of H.R. 3858 as it provides for an even 
land exchange involving no cost or nominal cost.
    This legislation proposes to adjust the boundary of New River Gorge 
National River to include seven tracts of land encompassing 1,962 
acres. The addition of these lands within the park's boundary would 
complete the rim-to-rim acquisition of lands on both sides of the 
gorge, permanently protecting its outstanding scenery in accordance 
with the legislation that originally designated the park. However we 
have not yet completed a formal study with public involvement to 
determine the appropriateness of including these lands within the park.
    The last provision of this bill proposes a land exchange and 
boundary modification with an adjacent local landowner for a parcel of 
land, approximately 1/4 acre in size, of equal value and equal size. 
This resolves an issue of private property encroachment and as a result 
the boundary is slightly altered, but there is no net change in the 
authorized acreage.
    New River Gorge National River was established in 1978 to conserve 
and protect 53 miles of the New River as a free-flowing waterway. This 
unit of the National Park System encompasses over 70,000 acres of land 
along the New River between the towns of Hinton and Fayetteville. The 
park and surrounding area are rich in cultural and natural history, 
with an abundance of scenic and recreational opportunities. The New and 
Gauley Rivers offer world-class whitewater boating, rock climbing, and 
fishing. The New River Gorge Bridge is the longest single span arch 
bridge in the world, and the second highest bridge in the United 
States. The New River Gorge has the most diverse assemblage of plant 
species of any river gorge in the southern Appalachians, it possesses 
considerable animal diversity, and is the state's leading warm-water 
fishery. Cultural resources include significant archeological sites as 
well as 19th and 20th century historic resources, towns, and commercial 
centers related to mining and transportation of coal, that played an 
important role in America's industrial history. New River Gorge 
National River is located within the National Coal Heritage Area 
(1996), and the New River is one of 14 rivers designated an American 
Heritage River (1998).
    All of the lands included in the proposed boundary adjustment are 
currently under private ownership and we understand that all six 
private landowners are willing sellers. Two of the tracts proposed for 
inclusion contain approximately 648 acres of steep, wooded slopes 
within the gorge, and are adjacent to Hawk's Nest State Park. The two 
other parcels, totaling 52 acres, provide access to an area that is 
heavily used by rock climbers and other visitors. The remaining two 
parcels would add 1,262 acres along the rim of the gorge. Completion of 
the planning process at New River Gorge National River will ensure that 
there is adequate public review regarding our land acquisition needs.
    As you know the Department is committed to the President's 
Initiative to eliminate the National Park Service's deferred 
maintenance backlog. The planning process would also address the land 
acquisition, operations, and development costs of the lands proposed 
for addition. We estimate that the addition of 1,962 acres within the 
boundary would require no less than $2 million in additional land 
acquisition funds. It is possible that several of the tracts of land 
proposed for acquisition would be maintained in an undeveloped 
condition and therefore have minimal administrative costs associated 
with them. However one tract may require some development to provide 
adequate accommodation for the high levels of public use.
    Thank you for the opportunity to comment. This concludes my 
prepared remarks. I would be glad to answer any question that you or 
members of the subcommittee might have.

    Senator Akaka. Thank you very much. I know you had a number 
of bills to make statements on.
    Mr. Max Stauffer, chairman of the Bass Lake School 
District, you may proceed.

        STATEMENT OF MAX STAUFFER, CHAIRMAN, BASS LAKE 
                 SCHOOL DISTRICT, FISH CAMP, CA

    Mr. Stauffer. Thank you, Mr. Chairman, and good afternoon. 
I appreciate the opportunity to be here today. I am here to 
testify regarding S. 2640 and H.R. 3421, which are authored by 
Senator Dianne Feinstein and Representative George Radanovich 
respectively. Specifically, I want to express my support for 
the language in both pieces of legislation that ensures the 
three schools within Yosemite National Park have the tools 
necessary to educate children.
    Because the need at these schools is so critical, I urge 
the Senate to approve the bills. I am testifying on behalf of 
the Bass Lake and Mariposa County School Districts. These 
districts serve families in Sierra Nevada Mountain communities 
stretching over more than 1,500 square miles in and around 
Yosemite National Park. Three elementary schools serve Yosemite 
families, El Portal, Yosemite Valley, and Wawona. El Portal and 
Yosemite Valley Schools have enrollments of about 50 children, 
while Wawona averages about 20.
    These mountain schools are charged with educating children 
of National Park Service and concessionaire employees. Because 
of their size and geographical location, the Yosemite schools 
are very difficult and very costly to serve equitably. Services 
such as special education, speech, reading remediation, fine 
arts, foreign language, and library services are very limited 
or not provided at all, while students at our other sites have 
these programs available. Because of the distance and 
difficulty of travel, particularly in the winter, staffing of 
these services is nonexistent.
    Our schools exist because Yosemite National Park exists. 
The Federal Government through the National Park Service and 
the concessionaire requires many employees to live in the park 
to meet the mission of the agency, which is to preserve and 
protect the park and provide services for park visitors.
    These schools are not amenities. They are a basic public 
service that all Americans should have a right to. These 
schools are necessary because, given the terrain, weather, 
winter driving conditions, transportation costs, and distances 
from other schools in the district, it is unreasonable to 
expect families to go elsewhere.
    Good schools are important to recruit and retain good 
employees. It is becoming increasingly difficult to attract 
quality employees to Yosemite because our schools cannot 
provide the educational opportunities larger, more urban 
schools can. The chief operating officer of the park 
concessionaire has purchased a home in an adjacent city in 
order to access a better education for his children. The park 
superintendent has moved his two children to Mariposa schools 
because he believes that the park schools do not meet the basic 
standards and his children would miss out on the extra programs 
available to students in the Mariposa schools. This option is 
not available to those with lower-paying positions, such as law 
enforcement personnel, clerks, naturalists, firefighters, 
housekeeping workers, and maintenance personnel. Without 
quality people to manage the park, the resource and the visitor 
experience will suffer.
    The deficit that the three park schools incur for their 
districts is about $100,000 each or over $300,000 per year. The 
California budget shortfall severely compounds our problem as 
cuts are already being felt statewide in education. State 
funding is inadequate because it does not take into 
consideration the uniqueness of the school's location, the 
small size, and the multi-grade teaching environments such as 
exist at Wawona School. With seven grade levels in a one-
classroom school, the teaching principal must prepare and teach 
seven lessons, seven lesson plans from kindergarten to sixth 
grade, follow the rigorous new curriculum standards for seven 
grades, all while managing the facility, handling 
administrative and secretarial duties, and even doing building 
maintenance.
    No alternative education possibilities exist for parents in 
the park without major transportation investments. Because the 
deficit affects the ability to provide an education to the 
other students in the districts, there is pressure from some 
school board members to close Wawona School.
    This situation is no longer acceptable to the parents of 
Yosemite schools or the trustees serving them. Over the past 
year and a half, parents, community members, administrators and 
school board members from both the Bass Lake School District 
and Mariposa School District have been meeting to solve some of 
the educational problems facing the schools in Yosemite. With 
the help of Senator Feinstein and Congressman Radanovich, we 
are closer to solving our problems.
    One solution involves a high level of cooperation between 
the two school districts and the National Park Service. It 
involves allowing funds from the National Park Service to be 
used to help improve the educational opportunities of its 
employees' children.
    Yellowstone Park has been doing this since 1949. Similar 
legislation would allow the Secretary of the Interior to enter 
into voluntary agreements with the two school districts. The 
additional funding provided within these agreements would be 
used to increase the level of service for special education 
students, make up the deficit factor that impacts other schools 
in the districts, provide for after-school tutorials, implement 
reading intervention in the primary grades, gifted and talented 
programs, and bring in specialists for fine arts, science, and 
physical education. It would also provide relief for 
transportation and maintenance costs.
    This issue is not about inflating the school bureaucracy, 
sir, nor is it about increasing salaries. The issue is all 
about equity. The issue is all about the kids in Yosemite. They 
deserve and have a right to a quality education.
    We need your help now. The families in Yosemite are 
counting on you. We respectfully ask for your support of S. 
2540 and H.R. 3421. Thank you, sir.
    Senator Akaka. Thank you very much, Mr. Stauffer. I just 
want to tell you that yesterday I received a letter from a 
school that is from Wawona in the southern district of Yosemite 
National Park, and here I have letters written by the students 
asking us to favorably consider this.
    Mr. Stauffer. They are as dedicated to the project as their 
parents are, sir. Thank you.
    Senator Akaka. So may we hear now from Ms. Patricia 
Zontine.

 STATEMENT OF PATRICIA L. ZONTINE, CHAIRMAN, SHENANDOAH VALLEY 
         BATTLEFIELDS FOUNDATION, SHENANDOAH VALLEY, VA

    Ms. Zontine. Thank you. Mr. Chairman, thank you for the 
opportunity to appear before you today to present the views of 
the Shenandoah Valley Battlefields Foundation on S. 2623, the 
Cedar Creek Battlefield and Belle Grove Plantation National 
Historic Park Act. The foundation supports the creation of the 
park and this legislation.
    As you know, the foundation is the successor organization 
to the Shenandoah Valley Battlefields National Historic 
District Commission. The foundation was created in 2000 as the 
first step in implementing the commission's management plan for 
the national historic district. The foundation serves as the 
management entity for the district, partnering with local, 
regional, and national organizations and governments to 
preserve and promote the Shenandoah Valley Civil War heritage.
    As such, we at the foundation are in a unique position to 
observe and experience the deep support that this new park 
enjoys. This support reaches across all levels of government 
and throughout groups at the local, regional, and national 
level. I have with me copies of resolutions from local 
organizations and governments, all supporting this legislation, 
and would ask that they be made a part of the record.
    The Battle of Cedar Creek, fought in October 1864, was one 
of the most important battles of the Civil War. It was one of 
the largest ever fought in the Shenandoah Valley and it was the 
end of the Confederacy's power in the valley for the remainder 
of the war, and it strengthened popular support in the North 
for President Lincoln, ensuring his reelection several weeks 
later.
    In addition to the importance of the battle itself, Cedar 
Creek and Belle Grove are also uniquely positioned to tell the 
civilian side of the Civil War story, as are many of the 
national historic district's battlefields. Here visitors have 
the rare opportunity to experience the stories of the families 
who struggled to survive the war that swirled around them.
    Through the last 140 years, the importance of this battle 
and the surrounding area has been widely recognized. Belle 
Grove Plantation has been preserved by the National Trust of 
Historic Preservation and Belle Grove, Inc., as a significant 
historic site since the 1960's and as a result is largely 
unchanged since it was built over 200 years ago. In 1969, Cedar 
Creek and Belle Grove were designated a national historic 
landmark.
    In the late 1980's, local residents created the Cedar Creek 
Battlefields Foundation to protect and interpret the 
battlefield. About that same time, Congress passed legislation 
calling for a National Park Service study of the valley's Civil 
War sites. This study, completed in 1992, stated that 15 of the 
valley's battlefields, including Cedar Creek, were eligible for 
the National Register of Historic Places and that collectively 
they met the criteria for national park status.
    The 1992 study led to the creation of the Shenandoah Valley 
Battlefields National Historic District by Congress in 1996 and 
the development and completion of the district's management 
plan in the fall of 2000. The 1996 legislation also directed 
the National Park Service to prepare a special resources study, 
SRS, to further assess the potential for a national park in the 
Shenandoah Valley. Completed in early 2001, the SRS found that 
the Cedar Creek Battlefield met Federal criteria for national 
park status. These findings supported the recommendation in the 
district management plan that a national park unit be created 
in partnership with local governments and organizations at 
Cedar Creek.
    The point here is that there is great consensus, both 
locally and Federally, that protecting the battlefield at Cedar 
Creek and Belle Grove is of national importance.
    The Battlefields Commission singled out Cedar Creek as 
having the greatest potential for hosting a National Park 
Service unit for a number of reasons. First, the battlefield 
itself is still primarily farm land, where visitors can get a 
real sense of the progress and prosecution of the battle and 
its troop movements. Belle Grove, the center of the 
battlefield, anchors the scene today as it did 140 years ago. 
The battle holds national significance, not only for its size, 
but also as a harbinger of the end of the war and its impact on 
the presidential election.
    The creation of this park would allow the Park Service to 
provide strong technical and other support for the national 
historic district. This park will help ensure the success of 
the district itself. This is why the park is a key component of 
the district's management plan.
    The district and the park also offer a model for future 
partnership-based public-private endeavors. The mission of both 
the foundation, as the district's management entity, and the 
park has been to partner with private and public entities at 
the local, regional, and national levels to articulate a 
unified vision for the protection and interpretation of these 
national historic resources. This public-private partnership 
model has been successful, bringing together disparate views to 
speak with one voice.
    The park itself will protect and encourage both the local 
ownership of the land as well as the living history activities 
that take place there. It will continue and expand the 
preservation efforts that have been going on privately for 
almost 40 years. It will help bolster the Shenandoah Valley's 
economy through heritage tourism.
    In addition to its unassailable Civil War significance, the 
site offers extensive opportunities for Americans to experience 
a wide scope of their history--Native American sites, a 
colonial pioneer homestead, the plantation manor house and 
grounds, remains of slave quarters and Underground Railroad 
sites and stories. Each of these helps to place the battle 
itself in the context of the broader American story.
    In conclusion, historians and lay people alike intuitively 
recognize the importance of the lessons of the U.S. Civil War 
and its impact on the American experience. We were reminded of 
this last week as we heard Governor Pataki read President 
Lincoln's Gettysburg Address in New York City. Remembering and 
experiencing our history makes us a stronger Nation. We need to 
protect and share the places where that history comes alive, 
and the creation of this park will offer countless generations 
of Americans the opportunity to steep themselves in the lessons 
of the past. It will help us be better stewards of our future.
    Therefore, on behalf of our local, regional, and national 
partners, I offer our wholehearted support for this 
legislation. Thank you.
    [The prepared statement of Ms. Zontine follows:]

Prepared Statement of Patricia L. Zontine, Chairman, Shenandoah Valley 
             Battlefields Foundation, Shenandoah Valley, VA

    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Shenandoah Valley Battlefields 
Foundation on S. 2623, the Cedar Crock Battlefield and Belle Grove 
Plantation National Historical Park Act. The Foundation strongly 
supports the creation of the park and this legislation.

 THE SHENANDOAH VALLEY BATTLEFIELDS NATIONAL HISTORIC DISTRICT AND THE 
               SHENANDOAH VALLEY BATTLEFIELDS FOUNDATION

    I am the Chairman of the Board of Trustees of the Shenandoah Valley 
Battlefields Foundation. As you know, the Foundation is the designated 
management entity for the Shenandoah Valley Battlefields National 
Historic District. The District encompasses most of the Shenandoah 
Valley of Virginia--eight counties and four independent cities.
    Recognizing the national significance of the Civil War story in the 
Shenandoah Valley, Congress created the National Historic District in 
1996 to protect, interpret, and promote 10 key Civil War battlefields 
in the Valley. At the same time, Congress also created the Shenandoah 
Valley Battlefields National Historic District Commission and tasked it 
with developing a management plan for the District. After three years 
of work and almost 100 public meetings, the Commission developed and 
submitted its Management Plan with tremendous public and private 
support. It was approved by the Secretary of the Interior and 
promulgated in the fall of 2000.
    The Management Plan for the National Historic District called for 
the creation of the Shenandoah Valley Battlefields Foundation to lead 
the implementation of the plan. The Foundation's mission is to partner 
with local, regional and national organizations and governments in a 
coordinated effort to preserve the Shenandoah Valley's Civil War 
heritage and share it with the nation.

            SIGNIFICANCE OF THE PROPOSED NATIONAL PARK AREA

    The proposed Cedar Creek Battlefield and Belle Grove Plantation 
National Historical Park enjoys wide and deep support across all levels 
of government and among groups at the local, regional and national 
levels. We at the Foundation are in a unique position to observe and 
experience this support. As a member of the now sunset National 
Historic District Commission, we found that our work was part of a 
continuum of interest and support for the preservation of our nation's 
Civil War story in the Shenandoah Valley.
    As you may know, the Battle of Cedar Creek--fought in October 
1864--was one of the most important battles of the Civil War. What 
started as a bold, sweeping Confederate attack on Union forces ended, 
after Sheridan's fabled ride to rally his troops, with a crusading 
Union counter-attack and final victory. It was the end of the 
Confederacy's power in the Shenandoah Valley for the remainder of the 
war. And it strengthened popular support for President Lincoln, 
ensuring his re-election several weeks later.
    Cedar Creek and Belle Grove are uniquely positioned to tell both 
the military and civilian sides of the Civil War story--as are many of 
the District's battlefields. Here, visitors have the rare opportunity 
to experience the stories of the mothers and children who struggle to 
survive the war that swirled around them.
    Belle Grove Plantation is significant for both its history and 
architecture. Built by one of the Valley's founding families and with 
presidential associations--Thomas Jefferson and James Madison--it is 
largely unchanged since it was built over 200 years ago.
    In recent decades, local and national interest in the history of 
this specific area of the Valley has grown. In 1969, shortly after 
Belle Grove was acquired by the National Trust for Historic 
Preservation, Cedar Creek and Belle Grove were designated a National 
Historic Landmark. In the late 1980s, local and national support for 
the preservation and interpretation of this battlefield was evidenced 
once again with the creation of the Cedar Creek Battlefield Foundation. 
(Together Cedar Creek and Belle Grove have preserved almost 900 acres 
of land at this site.) About this time Congress passed legislation 
calling for the National Park Service to study the Valley's Civil War 
sites. Published in 1992, this study determined that the 15 Valley 
battlefields were eligible for the National Register of Historic Places 
and identified them collectively as potential Park Service units. It 
was this study that indirectly led to the 1996 legislation that created 
the National Historic District and called for development of the 
District Management Plan.
    This legislation also directed the National Park Service to develop 
a Special Resources Study. This study was completed early in 2001. Its 
findings supported the recommendations from the Management Plan that 
Cedar Creek and Belie Grove met the criteria for a National Park unit.

     THE PARK AND THE NATIONAL HISTORIC DISTRICT'S MANAGEMENT PLAN

    As the Commission was developing the District's Management Plan, we 
found strong local support for the preservation of the battlefield at 
Cedar Creek as well as the other nine battlefields in our legislative 
mandate. Cedar Creek, however, was singled out as a recommended 
National Park Service unit. The battlefield itself is still farmland--
visitors can get a real sense of the strategic and tactical maneuvers 
of the battle. Belle Grove, at the center of the battlefield, anchors 
the scene today as it did 140 years ago. And the battle holds national 
significance not only for its size but also as a harbinger of the end 
of the war.
    Further, the Commission felt that the creation of the national park 
at Cedar Creek and Belle Grove would allow the Park Service to provide 
strong technical and other support to the National Historic District. 
This Park would help ensure the success of the District itself. Thus, 
the creation of this Park is a key component of the District's 
Management Plan.
    The District and the Park also offer a model for similar future 
endeavors. Both projects are partnership-based concepts. The mission of 
both the Foundation, as the District's management entity, and the Park 
has been to partner with private and public entities at the local, 
regional and national levels to articulate a unified Vision for the 
protection Fund interpretation of these national historic resources.
    The legislation before you would codify this partnership model by 
spelling out the roles of each of the partners: the National Trust for 
Historic Preservation, Belle Grove, Inc., the Cedar Creek Battlefield 
Foundation, the Shenandoah Valley Battlefields Foundation, and all 
levels of government. We support this language with one exception. We 
would like to suggest, as an organization specifically created by a 
congressional mandate, that it would be appropriate that this be 
reflected in Sec. 13(b)(5) and that the word ``may'' be replaced with 
the word ``shall'' such that the sentence reads, ``The Shenandoah 
Valley Battlefields Foundation shall continue to administer and manage 
the Shenandoah Valley Battlefields National Historic District . . .''

        THE CEDAR CREEK BATTLEFIELD AND BELLE GROVE PLANTATION 
                         NATIONAL HISTORIC PARK

    In addition in its unassailable Civil War significance, the site 
offers extensive opportunities for Americans to experience a wide scope 
of their history: native American sites, a colonial pioneer homestead, 
the plantation manor house and grounds, remains of slave quarters, and 
underground railroad sites and stories. Each of these helps to place 
the battle itself in the context of the broader American story.
    The park will also protect a number of natural resources in the 
Chesapeake Bay watershed: land and waterways, wildlife and breathtaking 
valley and mountain views.

                               CONCLUSION

    Historians and lay-people alike intuitively recognize the 
importance of the lessons of the U.S. Civil War and its impact on the 
American experience. We were reminded of this last week as we heard 
Governor Pataki read President Lincoln's Gettysburg Address in New 
York. Remembering and experiencing our history makes us a stronger 
nation. We need to protect and share the places where that history 
comes alive. And the creation of this park will offer countless 
generations of Americans the opportunity to steep themselves in the 
lessons of the past. It will help us be better stewards of our future.
    Therefore, on behalf of our local, regional and national partners, 
I offer our wholehearted support for this legislation.
    Thank you.

    Senator Akaka. Thank you very much for your statements. I 
have a few questions for each of you.
    Mr. Taylor, I have questions for you about S. 2640 and H.R. 
3421, which would authorize National Park Service funding of 
schools serving Yosemite National Park. This afternoon you 
testified in opposition to two minor park boundary expansion 
proposals in another bill establishing a new Civil War 
battlefield, and in previous hearings this year the 
administration has opposed virtually every other park 
designation or expansion proposal in order to focus your 
resources on eliminating the deferred maintenance backlog.
    Yet the administration now supports a bill to use up to 
$750,000 of park operating revenues each year at Yosemite and 
to use those funds for non-park purposes. So my question to you 
is can you explain why this proposal is acceptable, but the 
others were not?
    Mr. Taylor. That is a very good question, Mr. Chairman. I 
think one of the reasons why we do support Senator Feinstein's 
and Congressman Radanovich's legislation is because, as the 
Congressman mentioned, there are really very few other 
resources to look towards to address the educational needs, and 
I guess from a purely self-interested point of view in terms of 
recruitment, the educational situation has impacted negatively 
on our abilities to recruit and maintain staff people in the 
park and to a lesser degree, of course, concessionaires. The 
reason for that is because we require staff people to actually 
reside in the park and it is between a 1 and 2-hour commute to 
the nearest local community where other school opportunities 
might reside.
    So it has affected us directly, this educational system, 
and that is what has caused us to look favorably towards this 
legislation.
    Senator Akaka. There has been a fear that other requests 
might come in from other areas on this.
    Mr. Taylor. We share that fear, Mr. Chairman.
    Senator Akaka. Yes. Well, we will think about that.
    I have another question for you on the Yosemite bill. You 
support the legislation, but say that you do not want to create 
a precedent, as I said, putting the Park Service in the 
business of funding of small rural schools in the vicinity of 
the parks. For example, both Big Bend National Park in Texas 
and Grand Canyon National Park in Arizona have small rural 
schools within their park boundaries. How is the Yosemite 
situation different from these other parks?
    Mr. Taylor. Mr. Chairman, I do not know the specifics to 
answer your question. I would be glad to get back with you and 
your staff on that, on that particular issue.
    Senator Akaka. I have another question for you, Mr. Taylor, 
on S. 2640 and H.R. 3421, which authorize the Secretary of the 
Interior to use revenues from fees, among other sources, to 
fund Yosemite schools. Yet the legislation also prohibits the 
Secretary's use of fees collected under the Land and Water 
Conservation Fund Act, the Recreational Fee Demonstration 
Program, or the National Park Passport Program.
    What fee revenues are left for the Secretary to use for the 
Yosemite schools?
    Mr. Taylor. One minute.
    [Pause.]
    Mr. Taylor. I am afraid we are going to have to pass on 
that as well, Senator. I would be glad to get back with you.
    Senator Akaka. Fine. Will you provide that for us?
    Mr. Taylor. Yes, sir.
    Senator Akaka. I have a question for you on S. 2788, the 
proposed addition to Wind Cave National Park.
    Mr. Taylor. Yes, sir.
    Senator Akaka. You stated in your testimony that the 
Department would prefer to spend Park Service resources to 
reduce the maintenance backlog in existing Park Service units. 
It is my understanding that Senator Daschle worked closely with 
the Park Service in writing this bill. Is it the case that, 
apart from these funding concerns, the proposed additions to 
Wind Cave National Park would complement the existing park 
lands and advance the park's purposes?
    Mr. Taylor. I think other than the financial concerns that 
I have already expressed, Mr. Chairman, I think we do see the 
value of adding this acreage to the existing park.
    Senator Akaka. Thank you very much, Mr. Taylor, for your 
responses.
    Mr. Anderson, since the BLM supports S. 2776, there are not 
many questions to ask. Your testimony states that you would 
prefer that the BLM be designated as the lead agency for the 
preparation of the general management plan. The bill simply 
directs the Secretary of the Interior to prepare the plan. Are 
you concerned that the Secretary might not delegate this to the 
BLM even though the sites are on BLM lands?
    Mr. Anderson. I do not think we are concerned. However, we 
just wanted to reiterate the fact that of the 24 sites we do 
have 9 of them currently, and we are positioned, in terms of 
our field offices, we are positioned well there between Santa 
Fe and Albuquerque. If we were to acquire cooperative 
agreements or additional land, we are in a good position to 
administer those sites.
    Senator Akaka. Mr. Hainer, the National Park Service's 
position is that the expansion and modernization of the medical 
center has essentially destroyed much of the historically 
significant features of the site. Would you care to respond 
about this feeling?
    Mr. Hainer. Thank you for an opportunity to respond, Mr. 
Chairman. I believe that the comment or the perspective that 
the expansion in the early 1920's under the U.S. Public Health 
Service to build a centralized hospital, which was at the time 
reputed to be the world's largest tuberculosis treatment 
center, is a viewpoint that does not recognize the continued 
value and historic efforts beyond 1920 to the present day. I 
believe, Mr. Chairman, that my testimony was that the 
pioneering role in tuberculosis treatment included both 
Spanish-American War, World War One, and following World War 
Two veterans, and I consider the period beyond 1920 to be of 
great historic value as well, Mr. Chairman. Thank you.
    Senator Akaka. Thank you very much, Mr. Hainer.
    Dr. Giese, if the Fort Bayard is designated as a national 
landmark, what are the Fort Bayard Historical Society's plans 
to be involved with the landmark?
    Mr. Giese. We would like to be very closely involved. Fort 
Bayard really needs help badly. The buildings are in a bad 
state of preservation and we would like to bring a lot of money 
through grants, etcetera, to improve those buildings, and that 
would be our main role. In addition, we would like to operate a 
museum for visitors there, a visitors center. But we would not 
want to in any way interfere with the hospital operation and I 
do not think we would.
    Senator Akaka. Thank you.
    Mr. Stauffer, I have a question for you. You indicate in 
your testimony that the Yosemite National Park superintendent 
has moved his children to nearby Mariposa County schools.
    Mr. Stauffer. That is correct.
    Senator Akaka. If Federal funding must be used for Yosemite 
area schools, would it be more cost effective to close some or 
all of the existing schools within the park and instead send 
the children to a smaller number of better equipped schools?
    Mr. Stauffer. It may be more cost effective, sir, but it is 
a 50-mile one-way drive from Yosemite Valley to Mariposa and in 
the winter that route is very treacherous. I cannot even 
suggest to subject kindergarten kids to an hour and a half bus 
ride through the snow to Mariposa. It is just not practical. It 
is just not something that I could even recommend or even think 
about.
    Senator Akaka. Thank you.
    Ms. Zontine, my final question is to you. Due to funding 
concerns, the National Park Service is opposing S. 2623----
    Ms. Zontine. Yes.
    Senator Akaka [continuing]. Which would provide protection 
for Cedar Creek Battlefield. In your opinion from a 
preservation standpoint, what would happen if we follow the 
administration's recommendation and do not designate Cedar 
Creek Battlefield as a unit of the National Park Service?
    Ms. Zontine. I do not know how familiar you are with the 
Shenandoah Valley, but we are getting a lot of developmental 
pressure in our part of the valley, Frederick County, where 
Cedar Creek and Belle Grove are located, from the Washington, 
D.C., metropolitan area. I think it is the fastest growing 
county in the Shenandoah Valley. Because of this developmental 
pressure, I feel that a delay in designating this a park will 
further threaten the historic nature of both the battlefield 
and the Belle Grove Plantation, the integrity of the site.
    Senator Akaka. Well, thank you very much.
    I want to thank all the witnesses for your statements and 
your responses before the subcommittee this afternoon. Your 
comments no question will be very helpful to the committee and 
hopefully we will be able to move these bills through the 
committee and the Senate in the next few weeks.
    The hearing record will remain open for 2 weeks if anyone 
wishes to submit additional comments or materials to be 
included in the record. The hearing is adjourned.
    [Whereupon, at 3:29 p.m., the hearing was adjourned.]


</pre></body></html>
